<html>
<title> - MARKUP OF H.R. 2002, TAIWAN ASSURANCE ACT OF 2019; H.RES. 273, REAFFIRMING THE UNITED STATES COMMITMENT TO TAIWAN AND TO THE IMPLEMENTATION OF THE TAIWAN RELATIONS ACT; H.R. 97, RAWR ACT; H.R. 753, GLOBAL ELECTORAL EXCHANGE ACT OF 2019; H.R. 1704, CHAMPIONING AMERICAN BUSINESS THROUGH DIPLOMACY ACT OF 2019; H.R. 1952, INTERCOUNTRY ADOPTION INFORMATION ACT; H.R. 615, THE REFUGEE SANITATION FACILITY SAFETY ACT OF 2019; H.R. 526, CAMBODIA DEMOCRACY ACT; H.RES. 106, DENOUNCING FEMALE GENITAL MUTILATION; H.R. 1359, DIGITAL GLOBAL ACCESS POLICY ACT OF 2019; H.R. 951, U.S.-MEXICO TOURISM IMPROVEMENT ACT; H.R. 2116, GLOBAL FRAGILITY ACT; H.R. 1004, PROHIBITING UNAUTHORIZED MILITARY ACTION IN VENEZUELA ACT; AND H.R. 9, CLIMATE ACTION NOW ACT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  MARKUP OF H.R. 2002, H.RES. 273, H.R. 97, H.R. 753, H.R. 1704, H.R. 
 1952, H.R. 615, H.R. 526, H.RES. 106, H.R. 1359, H.R. 951, H.R. 2116, 
                          H.R. 1004 AND H.R. 9

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2019

                               __________

                           Serial No. 116-26

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                      
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-894 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="63130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>                              
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
 BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                                  
                                    
                            
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                   THE BILLS AND RESOLUTIONS EN BLOC

H.R. 2002........................................................     3
H. Res. 273......................................................     9
H. R. 97.........................................................    15
H. R. 753........................................................    18
H. R. 1704.......................................................    25
H. R. 1952.......................................................    37
H. R. amendment to 1952..........................................    41
H. R. 615........................................................    42
H. R. 526........................................................    44
H. Res. 106......................................................    54
H. R. 1359.......................................................    58
H. R. 951........................................................    75
H. R. 2116.......................................................    80

                   AMENDMENTS OFFERED FOR THE RECORD

Amendment offered for the record from Chairman Engel.............   111
Amendment offered for the record from Representative Sherman.....   127
Bill H.R. 9 offered for the record...............................   132
Amendment offered for the record from Representative McCaul......   144
Amendment offered for the record from Representative Curtis......   155
Amendment offered for the record from Representative Wright......   169
Amendment offered for the record from Representative Buck........   176
Amendment offered for the record from Representative Zeldin......   190

                                APPENDIX

Hearing Notice...................................................   200
Hearing Minutes..................................................   201
Hearing Attendance...............................................   202

            STATEMENTS FOR THE RECORD FROM COMMITTEE MEMBERS

Statement submitted for the record from Representative Chabot....   203
Statement submitted for the record from Representative Rooney....   205

                          RECORD VOTE TALLIES

Record vote tallies for H.R. 1004, Sherman Amendment #1..........   206
Record vote tallies for H.R. 9, McCaul Amendment #1..............   207
Record vote tallies for H.R. 9, Curtis Amendment #1..............   208
Record vote tallies for H.R. 9, Wright Amendment #1..............   209
Record vote tallies for Table Amendment, Buck Amendment #1.......   210
Record vote tallies for H.R. 9, Zeldin Amendment #1..............   211
Record vote tallies for H.R. 9...................................   212

                             MARKUP SUMMARY

House Foreign Affairs Committee Markup Summary...................   213

 
    MARKUP OF H.R. 2002, TAIWAN ASSURANCE ACT OF 2019; H.RES. 273, 
     REAFFIRMING THE UNITED STATES COMMITMENT TO TAIWAN AND TO THE 
  IMPLEMENTATION OF THE TAIWAN RELATIONS ACT; H.R. 97, RAWR ACT; H.R. 
  753, GLOBAL ELECTORAL EXCHANGE ACT OF 2019; H.R. 1704, CHAMPIONING 
      AMERICAN BUSINESS THROUGH DIPLOMACY ACT OF 2019; H.R. 1952, 
INTERCOUNTRY ADOPTION INFORMATION ACT; H.R. 615, THE REFUGEE SANITATION 
 FACILITY SAFETY ACT OF 2019; H.R. 526, CAMBODIA DEMOCRACY ACT; H.RES. 
 106, DENOUNCING FEMALE GENITAL MUTILATION; H.R. 1359, DIGITAL GLOBAL 
 ACCESS POLICY ACT OF 2019; H.R. 951, U.S.-MEXICO TOURISM IMPROVEMENT 
     ACT; H.R. 2116, GLOBAL FRAGILITY ACT; H.R. 1004, PROHIBITING 
  UNAUTHORIZED MILITARY ACTION IN VENEZUELA ACT; AND H.R. 9, CLIMATE 
                             ACTION NOW ACT

                         Tuesday, April 9, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 2:10 p.m., in 
Room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. We can get started. We might be able to do 
a bunch before they call the first vote, so the committee will 
come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any point. Pursuant to Committee 
Rule 4, the chair announces that the chair may postpone further 
proceedings on any vote relating to any matter under 
consideration during today's markup. Pursuant to notice, we 
meet today to markup 14 measures. Without objection, all 
members may have 5 days to submit statements or extraneous 
materials on today's business.
    As members were notified yesterday, we intend to first 
consider 12 bipartisan measures en bloc. Then we will move on 
to consider the ANS to H.R. 1004, and finish with consideration 
of H.R. 9. So let's proceed to the en bloc.
    The measures are H.R. 2002, the Taiwan Assurance Act of 
2019; H.Res. 273, Reaffirming the United States commitment to 
Taiwan and to the implementation of the Taiwan Relations Act; 
H.R. 97, Rescuing Animals with Rewards Act, RAWR; H.R. 753 
Global Electoral Exchange Act of 2019; H.R. 1704, Championing 
American Business Through Diplomacy Act of 2019; H.R. 1952, 
Intercountry Adoption Information Act with a Smith amendment; 
H.R. 615, The Refugee Sanitation Facility Safety Act of 2019; 
H.R. 526, the Cambodia Democracy Act; H.Res.106, Denouncing 
female genital mutilation; H.R. 1359, Digital Global Access 
Policy Act of 2019; H.R. 951, U.S.-Mexico Tourism Improvement 
Act; and, H.R. 2116, the Global Fragility Act.
    [The Bills and Resolutions en bloc follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. I will now recognize myself to speak on the 
en bloc measures. I strongly support all of these bipartisan 
bills and resolutions in this package. Because we have limited 
time and a lot of business to get through today, I will keep my 
remarks brief.
    First, I was very pleased to work with Ranking Member 
McCaul on H.Res. 273 and H.R. 2002, two bipartisan measures to 
further strengthen the U.S.-Taiwan partnership. Tomorrow marks 
the 40th anniversary of the Taiwan Relations Act and it is 
important for Congress to reaffirm our commitment to Taiwan and 
the implementation of that landmark legislation.
    Next, we have the Global Fragility Act, another bill that I 
introduced along with Mr. McCaul. This legislation passed our 
committee and the House last Congress and I am pleased that we 
are considering it again today. It will help strengthen and 
coordinate our government's efforts to help countries become 
stronger and more stable and thus make it harder for 
terrorists, criminals, and other violent groups to put down 
roots.
    I am also happy to join with Mr. McCaul on H.R. 1704, the 
Championing American Business Through Diplomacy Act, which 
prioritizes commercial diplomacy so the State Department can 
better support American businesses in the global market. When 
we think of the importance of diplomacy for American 
businesses, we must look at our southern border. Mexico is one 
of our largest trading partners, and the proximity between our 
two nations makes the U.S.-Mexico tourism industry an important 
economic driver.
    The U.S. tourism industry would suffer if President Trump 
follows through on his ill-advised desire to close the U.S.-
Mexico border. The U.S.-Mexico Tourism Improvement Act, a 
common-sense bill introduced by Mr. Cuellar and Mr. McCaul 
would benefit both our countries. This legislation will 
increase exchange programs in a number of economic sectors and 
demonstrate the kind of mutually beneficial partnership 
Congress wants with Mexico.
    I am also happy to support Mr. Yoho's Cambodia Democracy 
Act. This bill codifies existing sanctions to hold Cambodia's 
leaders accountable for their crackdowns on democracy and 
stripping the Cambodian people of their rights.
    We have two other strong measures on human rights before us 
today as well, H.Res. 106 introduced by Ms. Franklin and Mr. 
Perry, rightly denounces female genital mutilation as an 
egregious violation of women's and girls' human rights. And Ms. 
Mangin and Mr. Zeldin's Refugee Sanitation Facility Act will 
help provide women and girls and other vulnerable populations 
with safe and secure access to sanitation facilities in refugee 
camps.
    We also have a number of other good bipartisan measures 
that our committee passed last Congress. First, the 
Intercountry Adoption Information Act creates more transparency 
in the international adoption process so prospective parents 
are better informed about policy changes that could affect 
their adoptions. Next, the Rescuing Animals with Rewards Act, 
which embraces and enhances U.S. efforts to combat wildlife 
trafficking by authorizing rewards for information leading to 
the arrest or conviction of those engaged in the illicit 
wildlife trade.
    The Digital Global Access Policy Act, which passed the 
House last year, makes it a U.S. foreign policy priority to 
promote internet access in the developing world. And, finally, 
we have the Global Electoral Exchange Act which also passed the 
House last Congress. This bill introduced by Mr. Castro and Mr. 
Meadows would establish a program at the State Department to 
exchange best practices for elections around the world.
    I am pleased to support all of these bills and I would like 
to thank our members for their hard work. And now I will 
recognize my friend, our Ranking Member, Mr. McCaul of Texas, 
for any remarks he might have.
    Mr. McCaul. Thank you, Mr. Chairman.
    Today, our committee will markup and pass key legislation 
that will expand our economic prosperity and strengthen our 
national security. One of today's bills is my Championing 
American Business Diplomacy Act which I am pleased that my 
friend, Chairman Engel, co-sponsored. The legislation makes the 
promotion of U.S. economic interest a principal duty of our 
missions abroad. It also requires economic and commercial 
training for our diplomats serving overseas. By creating more 
international opportunities for American businesses, we can 
push back on growing Russian and Chinese influence across the 
globe.
    We will also be marking up legislation that recognizes and 
strengthens our relationship with Taiwan. Taiwan is a strong, 
democratic ally and is increasingly under threat from Communist 
China. My Taiwan Assurance Act, which Chairman Engel also co-
sponsored, reaffirms our support for Taiwan's defense 
capabilities and advocates for their participation in 
international organizations. As we celebrate the 40th 
anniversary of the Taiwan Relations Act it is important for our 
Taiwanese friends to know that our alliance will only grow 
stronger.
    Although our national security strategy has prioritized 
threats from rising nation-States, we cannot forget about 
threats that stem from weak and fragile States. These States 
are underdeveloped and often suffer from violent conflicts that 
are exploited by terror groups. Our Global Fragility Act which 
establishes the Global Fragility Initiative will serve as an 
interagency policy framework to better coordinate and 
prioritize our efforts to stabilize conflict areas. This will 
help prevent violence and extremism from spreading around the 
world. This is an important bipartisan bill that could have 
very positive results over time.
    We will also consider legislation to combat wildlife 
trafficking, denounce the barbaric practice of female genital 
mutilation, improve tourism between the United States and 
Mexico, strengthen intercountry adoption, and support 
democratic movements around the world. I believe these bills 
should win strong bipartisan support from our committee and I 
look forward to seeing them pass on the floor of the House.
    With that, Mr. Chairman, I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    Does anyone seek recognition for the purpose of speaking on 
the en bloc package?
    Ms. Omar?
    Ms. Omar. Thank you, Chairman. I really appreciate the 
effort to put forth a lot of bills that I will be voting yes 
on, but I wanted to take this opportunity to speak to bills 
that I am co-sponsoring. The first is H.R. 615, the Refugee 
Sanitation Facility Safety Act. I am proud to be an original 
co-sponsor of this bill which will provide much needed 
protection for girls and women in refugee camps around the 
world.
    Obviously, this issue is very personal to me. Girls and 
women in refugee camps are often unable to use sanitation 
facilities for fear of sexual assault. Ensuring that our 
support for refugee camps worldwide emphasizes the need to 
protect vulnerable populations is critically important. I want 
to express my support for my colleague, Congresswoman Meng, for 
introducing this important legislation and to my many 
colleagues on this committee who have co-sponsored this bill. I 
specifically want to thank my colleague, Mr. Zeldin, who is 
currently the only Republican co-sponsor of this bill.
    Second, I want to express my strong support for H.R. 2116, 
the Global Fragility Act. Conflict prevention and support for 
fragile States should be the forefront of our foreign policy. I 
am thankful to Chairman Engel, Ranking Member McCaul, and other 
members of this committee for introducing this bill and I am 
excited to be supporting and voting yes for it.
    Thank you so much for the bills that you have put forth and 
I look forward to this great work continuing. Thank you.
    Chairman Engel. Thank you very much.
    Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Chairman, I wish to convey my strong support for 
Congressman Collins' Intercountry Adoption Information Act and 
briefly explain the amendment that I am offering today. Just 
parenthetically I have long been a strong supporter of 
adoption. Matter of fact, back in 1989, I introduced 
legislation with over a hundred co-sponsors to create the 
adoption tax credit of $5,000. That was included in the`` 
Contract with America'' and it has doubled since. And now, 
people who are faced with upfront adoption expenses can get up 
to $13,000 worth of tax credit. It is still not enough, 
especially for intercountry adoptions.
    As we all know, all too often parents who are willing to 
open their hearts and homes are met with resistance from 
foreign governments who hold children hostage. In the past, we 
saw this happen in countries such as Ethiopia and the 
Democratic Republic of Congo. And I have had hearings on the 
DRC and that policy that they had. Although with the change of 
leadership in both countries, we believe, are changing.
    Beyond external obstacles placed on foreign governments 
which we cannot control, there are ones which we can control 
within our own government. Chief among them are the onerous 
fees that adoptive parents must pay. A Senate Appropriations 
Committee report last year called upon the State Department to 
assess whether such fees placed, and I quote, ``undue financial 
burden on families seeking to adopt internationally, especially 
low-income families, families seeking to adopt sibling groups, 
or families seeking to adopt children with disabilities.''
    Despite this directive, the State Department did not 
provide this information, hence the need for this amendment. I 
hope members will support it. It will require a report within 
180 days of the law's enactment, so we do not have to wait over 
a year to obtain this information. I yield back and thank you.
    Chairman Engel. Thank you.
    Are there any other members seeking recognition on the en 
bloc?
    Ms. Houlahan?
    Ms. Houlahan. Thank you, Mr. Chairman.
    I would like to take a moment to speak on the bipartisan 
resolution denouncing the practice of female genital 
mutilation. I am very pleased that my colleague from 
Pennsylvania, Mr. Perry, is co-leading this resolution and it 
is my honor to be a co-sponsor. Genital cutting harms three 
million girls annually, jeopardizing their health, their 
safety, and violating their right to their autonomy over their 
own bodies.
    I hope this resolution will be a starting point for a 
larger and bipartisan conversation about women's health 
including their access to contraception, preventing maternal 
deaths, and ending child marriage. With that in mind, I would 
be remiss if I spoke to the importance of this resolution 
without mentioning the great work of the United Nations 
Population Fund. The UNFPA is a leader in helping communities 
abandon the practice of female genital mutilation and it plays 
a key role in addressing women's health needs around the world. 
In spite of that, the President's administration has requested 
in its budget that Congress de-fund this critical program.
    I urge my colleagues to support this resolution and to 
continue to support funding for programs like the UNFPA. Thank 
you, Mr. Chairman, and I yield back.
    Chairman Engel. Thank you very much.
    Mr. Wright?
    Mr. Wright. Thank you, Mr. Chairman. And thank you and 
Ranking Member McCaul for agreeing to include H.R. 1359, the 
Digital Gap Act, in today's markup, which I introduced with 
Ranking Member McCaul and Representative Bera and Lieu. Today, 
the internet remains out of reach for more than half the 
world's population. That means four billion people, 
predominantly those in developing countries and women, do not 
have access to the benefits the internet provides like the free 
flow of information, life-changing innovations in health and 
education, and e-commerce.
    Expanding internet access is critical to driving economic 
growth, reducing poverty, improving education and health care, 
empowering women, bolstering democratic principles, and 
advancing U.S. interests around the globe. The Digital Gap Act 
will bring us one step closer to universal internet access by 
promoting common sense build-once policies, by working to 
remove tax and regulatory barriers to investment and by 
increasing public-private partnerships in internet 
infrastructure partnerships.
    The United States has long been a leader in promoting 
expanded internet access and passing the Digital Gap Act today 
will ensure we continue this leadership. Thank you again, 
Chairman and Ranking Member, for including this bill and I urge 
my colleagues to support all the bills en bloc. Thank you and 
yield back.
    Chairman Engel. Thank you. Is there any other member 
seeking recognition on the en bloc?
    Having heard no further requests for recognition, then, 
without objection, the committee will proceed to consider the 
noticed items en bloc. Without objection, the Smith amendment 
to H.R. 1952 is agreed to. The question occurs on the measures 
en bloc, as amended.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it.
    The measures considered en bloc are agreed to, and, without 
objection, each measure in the en bloc is ordered favorably 
reported, as amended. Without objection, staff is authorized to 
make any technical and conforming changes and the chair is 
authorized to seek House consideration under suspension of the 
rules.
    Now onto the next item of business. We are temporarily 
waiting for bills on the floor and when that happens we will 
suspend, but I think it is probably better to just continue.
    Pursuant to notice for purposes of markup, I now call up 
H.R. 1004, Prohibiting Unauthorized Action in Venezuela Act.
    The clerk will report the bill.
    Ms. Stiles. H.R. 1004, to prohibit the introduction of the 
United States armed forces into hostilities with respect to 
Venezuela and for other purposes.
    Chairman Engel. Without objection, the first reading of the 
bill is dispensed with. Without objection, the bill shall be 
considered as read and open to amendment at any point.
    I now offer an amendment in the nature of a substitute.
    [The Amendment offered by Mr. Engel follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. The clerk will please report the amendment.
    Ms. Stiles. Amendment in the nature of a substitute to H.R. 
1004 offered by Mr. Engel and Mr. Cicilline, strike all after 
the enacting clause and insert the following: Section 1, short 
title, this act may be----
    Chairman Engel. Without objection, the reading of the 
amendment will be dispensed with. Without objection, the 
amendment in the nature of a substitute will be considered base 
text, the purposes of further amendment, and I now recognize 
myself for remarks on H.R. 1004.
    First of all, I want to thank Mr. Cicilline for authoring 
this bipartisan bill and for his testimony before this 
committee last month. Having just returned from the Colombia-
Venezuela border, it saddens me to see just how quickly 
conditions in Venezuela are deteriorating. I heard truly 
heartbreaking stories from so many migrants and refugees who 
have fled the country.
    And, I am pleased that in the past month, our committee 
advanced three key pieces of legislation all of which passed 
the House. They keep the pressure on Nicolas Maduro and support 
the Venezuelan people. Frankly, I would prefer to focus our 
committee's attention solely on supporting the people of 
Venezuela in the struggle for a better future. But, 
unfortunately, we are forced to respond and reinforce the role 
of Congress under the Constitution and the War Powers 
Resolution. I do believe that it is Congress' right and ability 
to declare war and I think for too long we have been abrogating 
our responsibility to the executive branch no matter who the 
President was.
    There are some who will say we should not have a debate in 
Congress over the use of force in Venezuela, instead we should 
wait and see what the President decides to do before we even 
have a conversation about the use of force. I must respectfully 
disagree. Under Article I of our Constitution it is the 
responsibility of Congress to decide whether America will go to 
war. If the President wants to threaten military force, the War 
Powers Resolution specifies that he needs to make sure Congress 
supports that decision and will be prepared to authorize it, if 
necessary.
    So the bill we are considering today should really be 
unnecessary. The President should just follow the Constitution 
and the law, but, unfortunately, we have all seen Presidents of 
both parties carry out military interventions without coming to 
Congress. So today's legislation simply reasserts the legal 
requirement that the President must work with us now, not after 
U.S. troops are put in harm's way.
    We have ceded our authority for far too long, sitting on 
the sidelines. If we do not take action, the executive branch 
will keep disregarding the law and ignoring our role in this 
process. I have said it before and I will say it again, Maduro 
is a kleptocratic dictator and the Venezuelan people deserve 
better. We must continue to assert pressure on the regime and 
provide support for the Venezuelan people. None of this effort 
is undermined by reminding the Trump Administration that they 
must uphold the Constitution and come to Congress for any 
military authorization. To avoid this conversation would be 
irresponsible and a shirking of our most solemn responsibility.
    So I support this measure and urge all members to join me 
in doing so. And I will now recognize our Ranking Member, Mr. 
McCaul of Texas, for the purpose of his remarks on H.R. 1004.
    Mr. McCaul. Thank you, Mr. Chairman.
    I strongly oppose H.R. 1004 and I am gravely concerned that 
this exercise today is both dangerous and political. I 
understand the Majority wants to send a message to President 
Trump and, sadly, most Democrats will not directly recognize 
Juan Guaido as a legitimate interim President. But it is the 
Venezuelan people who are fighting for their freedom that this 
measure will hurt. Simply put, the ultimate winner of this 
markup and our division here today is Maduro and his failed 
Socialist regime.
    Colombian President Duque said this to me, and I strongly 
believe when he said that the credible threat of force is 
keeping interim President Guaido alive and deterring Maduro 
from further escalation of violence against innocent Venezuelan 
people we are trying to support. We must not underestimate this 
regime's cruelty. And the chairman and I saw it firsthand, they 
are starving their people and refusing to let humanitarian aid 
into the country. Maduro is holding approximately 864 political 
prisoners as we markup this bill including six CITGO workers, 
four of which are from my home State of Texas. He has unleashed 
armed colectivos who murder Venezuelans with impunity.
    I had the honor of meeting Juan Guaido's wife and she 
expressed her concern over the serious danger facing her 
husband. I also met the family of Guaido's chief of staff, 
Roberto Marrero, who remains imprisoned after being swept up by 
Maduro's Cuban-backed intelligence services. Shortly after we 
met, the Maduro regime revoked Guaido's parliamentary immunity 
and is threatening to arrest him based on allegations of 
terrorism.
    Our administration has stated its commitment to a peaceful 
resolution and we are all supportive of this. But the 
conditions on the ground are getting worse, not better. I just 
visited the Venezuela-Colombia border with Chairman Engel and 
witnessed the devastation and the humanitarian crisis. Fifty 
thousand Venezuelans escape every day and Maduro is solely to 
blame.
    The U.S. sanctions are working, but they need more time to 
have effect. The administration has made clear that more can 
and will be done to financially constrain the regime. Last week 
I was with Vice President Pence at a speech in Houston where he 
announced a new round of sanctions targeting Venezuelan oil 
shipments to Cuba. We have a coalition of 54 countries 
supporting the opposition. Maduro is feeling the heat. We 
should not give him reason to breathe a sigh of relief.
    We all want to see a peaceful transition in Venezuela 
through free and fair elections, and to make this happen Maduro 
must understand that the best outcome is to step down and leave 
the country peacefully. However, this legislation jeopardizes 
that outcome by appearing to take military force off the table 
and handing a propaganda win to Maduro. It also emboldens the 
Cubans and the Russians who are the real interventionists in 
Venezuela.
    And speaking of Cuba and Russia, I would not be surprised 
if they help create and if this bill helps create propaganda 
showing division in Washington over our policy in Venezuela 
during this markup. Let me be clear, I am a strong supporter of 
the sole power of Congress to declare war under Article I. If 
the circumstance presented itself, I would be the first to push 
Congress to act.
    Opponents of this bill are not advocating for military 
action. We simply do not want to handcuff ourselves and limit 
our options to end this crisis. So I hope that my colleagues 
can recognize the dangers of passing this bill at this time and 
join me in voting against it. Any actions this Congress takes 
regarding Venezuela, in my judgment, should be bipartisan and 
demonstrate unity of our common values of freedom and democracy 
which we all stand for. The Venezuelan people have suffered 
enough. Let's not let this bill complicate their efforts to 
achieve freedom from socialist tyranny, and put an end to this 
humanitarian disaster. With that I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    Votes on the floor have been called, so I am going to do a 
recess now. Once members have voted, I ask please that all 
members return as soon as possible to continue the markup and 
then we will have others who wish to speak on the bill and some 
members have amendments to offer as well. So the committee 
stands in recess, subject to the call of the chair, and we will 
start right after votes are done with on the floor.
    [Whereupon, at 2:35 p.m., the committee recessed, to 
reconvene at 3:21 p.m., the same day.]
    Chairman Engel. OK, the committee will come to order. I 
realize that members wish to speak on the bill, some may wish 
to speak on the bill and that some members may have amendments 
to offer. If members have general remarks on the bill we could 
hear those now and then move on to amendments.
    So, is there anyone who would like to make a general remark 
on any of the bills?
    Mr. Cicilline. Mr. Chairman.
    Chairman Engel. Mr. Cicilline?
    Mr. Cicilline. Thank you, Mr. Chairman. I move to strike 
the last word.
    Mr. Chairman, I want to thank you for holding this markup 
today and for considering H.R. 1004, a bipartisan bill with 64 
co-sponsors. As the chairman noted, we are offering an 
amendment in the nature of a substitute to be considered as 
base text and I ask all of my colleagues on the committee to 
support this legislation.
    I wish this bill was not necessary. I would prefer we spent 
our time working to find ways to support the Venezuelan people 
and their efforts to establish democracy in Venezuela. However, 
because of the belligerent and irresponsible language by Trump 
administration officials, we have no choice as a Congress but 
to weigh in and ensure that this administration understands 
that it does not have consent to engage in war in Venezuela.
    This bill very simply restates the law as already enforced 
in the War Powers Act and laid out in our Constitution that any 
military force with respect to Venezuela must be authorized by 
Congress. So if you have a disagreement with this bill, you 
have a disagreement with the Constitution. Nicolas Maduro is a 
dictator whose regime has destroyed Venezuela's economy, 
starved its people, and engaged in widespread corruption and 
repression. The people of Venezuela deserve a better future, a 
future they determine, and we all believe the Venezuelan people 
have a right to pick their leaders, a right Maduro has denied 
his people by refusing to hold free and fair elections.
    Nicolas Maduro is the responsible party when it comes to 
the current situation in Venezuela. We must have a policy that 
continues to place pressure on him and that seeks a diplomatic 
solution in Venezuela. But the Trump administration's use of 
rhetoric surrounding military force in Venezuela is unfortunate 
and counterproductive. Not only would military intervention be 
illegal, it would also come with serious consequences that I 
feel would not only hurt the Venezuelan people, but also the 
prospects for democracy.
    Under the Constitution and the War Powers Act, the 
President may not take unilateral military action and must 
consult with and receive authorization from Congress. As 
Special Representative Elliott Abrams confirmed when he was 
here testifying before this committee, the conditions for 
unilateral, Presidential military action have not been met. 
Congress has not declared war on Venezuela. There is not any 
existing statutory authorization that would allow for military 
intervention in Venezuela, and Venezuela has not attacked the 
United States, its territories, or possessions, or its armed 
forces. Yet the administration continues the drumbeat of 
aggressive saber-rattling rhetoric, promoting military 
intervention as an option, the only country of the coalition 
that continues to make that claim.
    This administration has already shown their willingness to 
take illegal military action without consulting Congress, such 
as when they launched attacks on the Assad regime without 
proper authorization. I understand that some of my colleagues 
will say that while they do not support military intervention 
in Venezuela, they oppose this bill because they do not think 
it is necessary or they think it is unnecessarily partisan or 
that its passing could harm Juan Guaido. I would like to 
respond to this line of argument.
    First, the bill is absolutely necessary in order for 
Congress to be clear about what our expectations are 
surrounding military action in Venezuela. I would like to refer 
to the testimony of Deborah Pearlstein, a professor of law at 
the Cardozo School of Law and a witness at the hearing we held 
last month on this bill.
    She said, and I quote, ``the President's power waxes and 
wanes as a function of what Congress does.'' When Congress has 
said nothing, the President is acting in, effectively, a 
constitutional twilight zone. She continued, ``the President is 
in a different constitutional position when Congress has 
affirmatively said, ``Not yet,'' or ``No,'' and that is the 
shift that this legislation would make, end quote. If you want 
to properly exercise our constitutional authority in light of 
the administration's ongoing rhetoric, we are compelled to act.
    Second, to the criticism that this bill makes the issue of 
Venezuela partisan, I would say please join us in supporting 
this common-sense legislation and let's send a clear and 
bipartisan message to the administration and to the world that 
Congress has decided to stop abrogating our constitutional role 
in military affairs. The only reason we are here considering 
this bill today is because the administration took it upon 
itself to threaten a war it does not have an authorization to 
start.
    And third, to the argument that passing this legislation 
could put Mr. Guaido in danger, I have to respond by saying 
that I have the utmost respect and admiration for Mr. Guaido, 
but must point out that his security is threatened by the very 
nature of who he is and how he has chosen to stand up for the 
people of Venezuela. I admire his courage greatly, but we 
cannot allow the potential brutish actions of Nicolas Maduro to 
dictate American foreign policy decisions.
    Finally, to the argument that this bill would take pressure 
off of Maduro or take any options off the table, this is simply 
not reflected in the substance of the bill. This bill takes no 
options off the table. If the administration wanted to come to 
Congress tomorrow to discuss authorization for military action, 
it could do so. The U.S. Constitution and the War Powers 
Resolution have set up the checks and balances framework for 
American military action, not this legislation.
    I would like to finish by saying that this administration 
has shown a troubling disregard for the Constitution and for 
Congress. That is why I introduced this legislation and that is 
why we must pass it. U.S. military action with respect to 
Venezuela would be illegal and ill-advised. Americans do not 
want another endless foreign military engagement and the 
administration has not made any case based on American national 
security or our interests for intervention in Venezuela.
    Rather than threaten war, the United States must continue 
to work with the Lima Group, Europe, and the international 
community to use diplomatic and economic tools to pressure 
Maduro to honor the will of his people. Congress should do 
everything in its power to support a peaceful, truly democratic 
transition of power in Venezuela. I am thankful to the more 
than 60 bipartisan co-sponsors, many of the members of this 
committee, who are supporting this bill and I ask my colleagues 
on both sides of the aisle to join me in voting in support of 
the Constitution, in support of Congress's role, and in support 
of this bill. And with that, Mr. Chairman, I yield back.
    Chairman Engel. Mr. Yoho, did you wish to speak?
    Mr. Yoho. Yes, sir, I did. After Mr. Kinzinger.
    Chairman Engel. OK, Mr. Kinzinger is recognized.
    Mr. Kinzinger. Well, I thank the gentleman and thank you, 
Chairman. I am going to try to do this as professionally 
without getting upset as I can.
    I want to talk briefly about what is going on in Venezuela, 
a disgusting situation. People are starving to death. We are 
seeing firsthand the failure of autocratic rule of socialism. 
In the process, Mr. Maduro has decided that he is going to 
maintain power against the legitimately elected President, Mr. 
Guaido of Venezuela. If the United States wants to pressure 
Maduro out of his fake office that he does not have the right 
to have, we have what is called the DIME model, diplomatic, 
information, military, and economic things at our disposal.
    My friend, Mr. Cicilline, just said that, you know, we need 
to use diplomatic and economic processes to force a solution 
here. And the thing I would make mention of that is when you 
are dealing with an enemy or an adversary, the only thing that 
makes diplomacy effective as well as economic is a military 
option on the table, is having that threat there. If you look 
at North Korea, what is it that compelled Kim Jong-un under the 
table? It was the threat of military force. What is it that 
took him away from the table? It was the removal of the 
military threat. That is the same situation in Venezuela.
    But let's say if this passes what does this do? Let's say, 
Mr. Guaido, President Guaido is held captive. Let's say he is 
captured by Maduro. We cannot use military force to rescue him. 
Let's say we want to put food aid in to save the people that 
are starving to death in Venezuela and we need the military to 
escort food to people. They would be prohibited from doing it 
after this.
    Let's say the Russians build a military base in Venezuela 
and start flying fighter CAPs over the country and basically 
declare it Russian territory. This would prevent the United 
States from doing anything in----
    Mr. Cicilline. Would the gentleman yield for----
    Mr. Kinzinger. No, I will not. Let me finish. I listened 
politely to you, sir.
    Let's say that they build a military base. The United 
States cannot introduce any military action to push back 
against it. Let's say a massacre occurs in Venezuela. The 
United States cannot use the military to stop it. If you look 
at what happened in Rwanda, one of the greatest regrets of the 
Clinton Administration is inaction because of a massacre. If 
this situation happens in Venezuela, which is not that far out 
to think of, we would be prevented.
    Now, sure, we could come here and have a debate. And if you 
think that this House can have a grown-up debate about this by 
taking away the power that the President legitimately has under 
Article II in the Constitution, if we are already political 
about Venezuela imagine what it will become at that point. 
Imagine the politics while a massacre is occurring.
    By the way, I actually thought about introducing an 
amendment to this to add Canada to the list and Jamaica and 
every other country, because if we are going to now pass 
resolutions saying we cannot introduce military force in 
Venezuela we may as well say the same thing about Canada or any 
other country that we have no intention at this point of going 
to war against. It would just make sense. That is about the 
purpose of this bill.
    And the other thing I want to say, Mr. Chairman, with all 
due respect, I have been on this committee now, I guess it is 
my fifth year. I have been in Congress for 9 years. And one of 
the things I have just loved about this committee is our 
ability to really come together in bipartisan ways. In fact, 
the entire time I think that I was on Foreign Affairs up until 
this year we have never taken a recorded vote in this 
committee, because everything we have done, we have had 
debates, we have had discussions, but we have really worked 
together to advance the interest of the United States of 
America.
    Even when President Obama was President, we would have 
hearings that could get a little contentious on things like 
Syria and that kind of stuff, but for the most part we would 
pass resolutions that we all agreed on. But so far on this 
committee we have done something about Yemen and now we are 
doing something about Venezuela.
    Mr. Chairman, my request to you as passionately as I can 
ask it is, can we at least pick a week in the next month or 
when we come back from break where we can actually do things on 
a bipartisan basis again and kind of see how it feels? Because 
if it feels good, maybe we can get back to that as the way we 
do things on committee instead of bringing up bills and passing 
them to make a point about the Trump administration.
    By the way, I cannot think of crazy--I mean, look. There is 
rhetoric the President does that I do not always agree with, 
but I cannot think of that on Venezuela. He gave a really 
passionate speech in Florida about freedom in Venezuela and 
Cuba. He said the military action is not off the table, as he 
should say with any situation like that because it gives teeth 
to diplomacy.
    So this is an answer in search of a problem. There is no 
problem and I do not know why we are taking this up. I had 
actually thought we were going to have a hearing and let this 
go away, but again we are back here. So, look. I am fired up. I 
am passionate about it. I respect everybody on this committee, 
but this is just really bothersome to me and I yield back.
    Chairman Engel. Well, I am sorry that the gentleman thinks 
that people should not be allowed to express their opinions on 
the Foreign Affairs Committee. I have been on this committee a 
long time and I believe that we ought to have more people 
speaking their mind, not fewer.
    Anyone on this side? Mr. Sherman?
    Mr. Sherman. I would just like to briefly respond to the 
last speaker. There is no more bipartisan committee in Congress 
than this one. And, in fact, this very markup we have quite a 
number of pieces of bipartisan legislation that will pass. It 
is true that watching Congress does not inspire one that this 
is the finest decisionmaking body assembled in history, but to 
say for that reason we should leave all decisionmaking about 
matters of life and death to this administration, I think that 
goes a little too far, especially it goes too far under our 
Constitution which vests in Congress the right to send this 
country to war.
    This is a very reasonable proposal. It says we should not 
invade Venezuela. If there are developments that come up, the 
President can call us into special session and we can deal with 
them immediately. But to say that to support this bill is to 
ignore the genocide in Rwanda and the lessons that it taught us 
is absurd. It is far more likely that this administration will 
invade Venezuela and do harm than it is that we are going to 
see a Rwanda-style genocide in Venezuela that somehow the Trump 
administration would prevent were it not for this bill.
    With that I yield to the gentleman from Rhode Island.
    Mr. Cicilline. I thank the gentleman for yielding. I 
attempted to ask the gentleman who was just speaking, my 
Republican colleague, a question. The question is, the 
scenarios that you describe for the committee that were 
horrific and you said this bill would stop us from doing 
anything about it, that is absolutely not true. Nothing in this 
bill would limit the ability of the Congress to authorize 
intervention in any way we see appropriate. It simply reaffirms 
that Congress has a role and that we be held accountable for 
those decisions.
    It is easy to say, ``You know what, Mr. President, you make 
this decision. We will avoid our responsibility, because then 
we avoid the tough decisions.'' That is what we were elected to 
do. That is what the Constitution requires, that we deliberate, 
that before we send men and women into harm's way to risk their 
lives in defense of our country that we own that 
responsibility, that we debate it and we vote on it, because we 
reflect the will of the American people.
    So it is nothing in the legislation changes the 
Constitution. It does not limit the President's power. It does 
not change the Constitution. It simply is a reminder in light 
of the rhetoric of this President that Congress must authorize 
military action. That is all it is. This is about reaffirming 
our responsibility.
    The reason we do not have Canada in the bill is I have not 
heard the President threaten military action in Canada. But we 
have heard him say repeatedly, the military option is on the 
table. And then people say, ``Oh, it really is not. We do not 
want to do it.'' Then you should vote for the bill. This is 
about preserving Congress's role as a deliberative body in 
decisions of war and peace. That is what we were elected to do. 
That is what we get paid to do.
    I know it is easier if we avoid the tough decisions and 
just leave it up to the President. Our Constitution requires 
something more, and so all I am asking is to support this bill 
which just reaffirms. And by the way, the group, the 
international group, the Lima Group, they all manage to be 
playing a very productive role in a peaceful transition to 
democracy without the threat of military force.
    The United States is an outlier. We do not need to be in 
that position. This is a moment for Congress to do its job, to 
assert its authority as set forth by our Founding Fathers in 
our Constitution and to be responsible before we send men and 
women into harm's way. With that----
    Mr. Sherman [presiding]. I will reclaim my time.
    Mr. Cicilline. Yes.
    Mr. Sherman. I think the gentleman makes an excellent 
point. And I think that if action in the future should be taken 
into Venezuela, this Congress can make a well-reasoned 
decision. I then yield back and then recognize the gentleman, 
Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    And this is a very important topic obviously to go on this 
long. I just want to remind my colleagues, not just on the 
other side but all of us here, we are making a decision here in 
a bill form versus a resolution saying that the President 
cannot do this. And I do not remember the President saying he 
was going to go in there. He just said all options are on the 
table.
    And I think with the tinderbox that Venezuela is right now, 
I think what you are seeing play out there is it is not about 
Venezuela. This is a lot more than Venezuela. This is the Cuban 
Government that has been propping up Venezuela for years with 
10-40,000 troops protecting Maduro, before that Chavez, and 
then you have the Russians in there. And if Venezuela falls, so 
does Cuba. And so to take military option off the table, and 
the President like I said he never said he was going in there. 
And I truly believe that if he was, he would come to Congress 
and ask for that authority.
    But to play into the hands of the Maduro regime, the Cuban 
regime, the Russians who are probably watching this saying, 
``Look at the Americans, they are divided on this issue in 
their own party,'' and we have not done anything. We are 
worried about, this is not a genocide. My colleague, Mr. 
Sherman, said there is no genocide there like Rwanda. Let's 
hope there is not. There was not a genocide in Syria, but now 
there is over 500,000 people that have been slaughtered because 
Russia got in there and backed up Assad.
    Do we want that same thing in our hemisphere? And I asked 
my colleague from Rhode Island, who is a small business owner, 
are you doing this for the benefit of the Venezuelan people or 
is it for this thing for this President?
    Mr. Cicilline. I am happy to answer if you will yield.
    Mr. Yoho. And I am not going to yield that.
    Mr. Cicilline. But you asked the question and you are not 
going to yield to let me answer it?
    Mr. Yoho. I am not going to. I have got to yield some time 
to my colleague, here, Mr. Kinzinger.
    Mr. Kinzinger. Well, I thank the gentleman.
    And just a couple of points, the key in Venezuela right now 
is getting the military to abandon the fake regime, the Maduro 
fake regime. When you take military off the table, the military 
is not very compelled to abandon the regime because they do not 
see a threat. They see the Russians introduced there. They see, 
you know, tens of thousands Cuban people holding up the regime. 
The mere threat of force can cause the military to abandon Mr. 
Maduro.
    Second, to my friend, you mentioned that this really does 
nothing outside of the War Powers Act. The War Powers Act gives 
the President flexibility to move and then he has to advise 
Congress and then eventually it comes to Congress for a vote. 
This expressly prohibits the President from introducing any 
military force unless it is to rescue a U.S. citizen.
    So it expressly prohibits the U.S. from using military 
force to create a humanitarian corridor, to rescue Guaido, to 
stop a genocide. I am not saying a genocide is going to happen, 
but who knows what can happen in this environment, any flash 
kind of issue like this. This bill expressly prohibits that. So 
it would be actually pretty hard to say that the President can 
act within the War Powers Resolution when this bill, if passed 
and signed into law, of course it will not be, when this bill 
says the President cannot do anything unless it is in defense 
of an American who is being held hostage.
    And I also want to make one other quick point. I supported 
President Obama in his actions in Syria in 2013. I wanted the 
President to attack the regime. The President came to Congress. 
The President I do not think needed to come to Congress in 
2013, he could have made the decision on his own like President 
Trump did in fighting back and pushing and enforcing the red 
line against chemical weapons.
    When it came to Congress, and I will blame my side as much 
as anything for this, it became political when he brought it to 
Congress and we did not give him the authority to attack. And 
we look in the Middle East and most people would agree the 
biggest mistake ever made in Syria was the failure to enforce 
the red line in 2013. And there have been a number of mistakes 
since then.
    I am not playing the old what-ifs and the way-back game, 
but I am making the point that I believe a President should 
have the ability to do foreign policy on a speed-type situation 
like this without every little tiny action having to come to 
Congress, because I am not commander-in-chief and nobody in 
here is commander-in-chief. And with that I will yield back to 
the gentleman from Florida.
    Mr. Yoho. I appreciate your comments.
    Mr. Cicilline. Are you ready?
    Mr. Yoho. No, not right yet, but I appreciate you trying.
    We need to keep in mind that the legitimate President is 
President Guaido and we are weakening his hand to take over as 
a legitimate President of that country when they see the 
Americans saying, ``Well, you know what, we are backing away 
from this. We are going to let whatever happens.'' And I think 
we have seen that happen in Libya and other countries.
    And I think this is a time that we stay united. As we go to 
vote on this today that we stay united as the U.S. Congress and 
send a strong message that all options are on the table and I 
suggest that we vote no on this. I yield back.
    Mr. Deutch [presiding]. The gentleman from New Jersey, Mr. 
Malinowski, is recognized.
    Mr. Malinowski. Thank you. I appreciate the comments from 
Mr. Kinzinger and others on the other side.
    Let me see if I can find some common ground here. I think 
there are two separate questions. One is, should the use of 
force be on the table, and the other is, what is the process 
for making these decisions. I appreciate the comments of 
Ranking Member McCaul that those who oppose this resolution are 
not necessarily in favor of the use of military force. I would 
argue the opposite is also true for many of us. Those who are 
willing to vote in favor of this resolution are not necessarily 
opposed to the use of force under any and all circumstances.
    I can imagine circumstances under which I would vote very 
rapidly in favor of the use of force in Venezuela. Mr. 
Kinzinger mentioned some of those hypothetical situations. So I 
do not think it is the case that this would automatically 
become politicized if President Trump were to come here. I 
support, I recognize Mr. Guaido as the legitimate leader of 
Venezuela. I think we should recognize that as a Congress and I 
would support legislation to that effect as well.
    But I think what this legislation is about is process. It 
is about whether in that circumstance the U.S. Congress should 
play a role in making a decision, and for that narrow reason I 
would vote in favor of it. I yield.
    Mr. Deutch. I am sorry. Mr. Perry is recognized for 5 
minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    Members of the committee, I think the process is clear. The 
Constitution is clear. The President is already limited and 
should not be limited further in this case or any other case. 
And it seems to me that if we want to stand with the freedom-
loving people of America and Venezuela we have a choice here of 
either allowing the process to take its course if need be, 
because if any committee should understand this, we should 
understand that diplomacy without a strong deterrence, without 
a strong military response capability is like a saw without 
teeth.
    And the conversation we are having right now in this 
committee about this discussion, whoever is watching, I am sure 
the Communist Chinese are loving this. I am sure the Cuban 
Government is loving this. And I am sure the Russians are happy 
to collude on this. We either stand with the freedom-loving 
people of Venezuela or we do not. We either send a message to 
Maduro that America does not stand with him, or we do not.
    And that is what this is going to end up being. That is 
what this vote is going to be about. It is shirts and skins at 
this point. If you do not get that I think you are missing the 
bigger picture. The process is already clear. There already is 
a law. There already is a Constitution. Limiting the President 
to act as he should and then following up as we should is the 
process that has been outlined and usurping that only emboldens 
our enemies and Venezuela's enemies.
    And I yield to Mr. Kinzinger.
    Mr. Kinzinger. Well, I thank the gentleman for yielding.
    And I think it is important to point out that the War 
Powers Resolution what it really does, it requires the 
President to notify Congress within 48 hours of committing 
armed forces to military action and it forbids them from 
remaining for more than 60 days without congressional approval. 
And it also provides a mechanism as we have experienced here 
and elsewhere for a privilege resolution to withdraw troops, 
and we understand that.
    So to say that this simply just reinforces the War Powers 
Resolution, it does not do that. The President has flexibility 
according to the War Powers Resolution to make decisions on the 
use of military action and then Congress is triggered at that 
point to act. But to preemptively say that we cannot, that we 
are going to take away the President's ability to even threaten 
the use of military force because, you know, and now somehow 
get a diplomatic solution with just economic measures or to say 
that the President cannot commit military to any circumstance 
except rescuing U.S. hostages in Venezuela, I am all for 
rescuing U.S. hostages in Venezuela, but I can think of a 
thousand other things, scenarios that if I brought up we would 
probably have a hundred percent agreement that that would cause 
the introduction of U.S. troops.
    But let's say something happens really quickly. Let's say a 
humanitarian corridor issue or let's say it has to do with the 
Russian jets and we are gone for the next 2 weeks. And if the 
President needs our vote now because this thing was just signed 
into law, we would have to come back 48 hours, probably take a 
couple days to debate and then vote. So we have now limited the 
President's ability to act by 5 days, if we are lucky, if we 
can get everybody back here in that kind of a time.
    The War Powers Resolution is just fine. It is exactly what 
we need to handle a situation like this, but this I believe is 
being done because for whatever reason there is a political 
consideration. And I do not mean that pejoratively to my 
friend, Mr. Cicilline and I are friends. But I do think this is 
unnecessary. And with that I will yield back to my friend from 
Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman. I yield the balance.
    Mr. Deutch. Well, I think you want to yield the balance of 
your time to Mr. McCaul, the ranking member.
    Mr. Perry. That is what I meant.
    Mr. McCaul. I thank the gentleman from Pennsylvania.
    I know this is well-intentioned, but I have to tell you I 
think it is very dangerous. And what I saw down on the border 
of Venezuela with the Chairman were a bunch of babies and young 
children and mothers and grandmothers who were leaving that 
country, 50,000 a day, for one reason and one reason only, and 
that is President Maduro, the illegitimate President and the 
humanitarian crises he has brought upon his own people.
    So I think it is important to look at, as Mr. Perry pointed 
out, who is for this and who is against this, because I think 
that is instructive. I can tell you that Ambassador Vecchio 
came to me trying to stop this and then the Majority agreed to, 
``Well, let's just have a hearing and then we will stop.'' And 
they broke that promise and then they came back and now they 
are marking this bill up. I have talked to the Ambassador from 
Venezuela. He does not want to see this go forward. I have 
talked to the Ambassador from Colombia. They do not want to see 
this go forward.
    The President of Colombia himself said the only thing 
keeping Guaido, President Guaido alive and safe is a threat of 
credible force. Who is for this? Maduro is, the Russians are, 
the Chinese are, and the Cubans. Let's remember who our enemies 
are and who our friends are and it is the people of Venezuela, 
not our enemies. And I yield back.
    Mr. Deutch. The gentleman from Virginia is recognized.
    Mr. Connolly. Thank you, Mr. Chairman.
    I cannot imagine a more important in saying a debate than 
the one we are having. There is nothing more momentous and 
consequential in any vote we will ever cast than it is about 
war and peace. And for too long, frankly, the legislative 
branch since World War II have found the coward's way out. We 
have criticized the executive branch for its actions, but of 
course we take no responsibility for it even though the 
Constitution is quite clear.
    Article I, in my view, could not be clearer. Only the 
legislative branch has the right to decide on war and peace. 
And by the way and to marshal the armed forces commensurate 
with that decision. If there are imputed powers to Article II 
for the President in his role as commander-in-chief, surely 
there are also commensurate imputed powers in Article I for the 
legislative branch of the U.S. Congress.
    Now I have heard some arguments from my friend from 
Pennsylvania that startle me. He has given us a stark choice. 
He says you are either with the people of Venezuela or you are 
not, and I guess the subtext of that challenge is if we do not 
vote for military intervention at some point we are not. Well, 
I beg to differ. I do not think that is the choice at all in 
front of us.
    I would also argue that reasonable people can reasonably 
disagree. But, frankly, the introduction of U.S. military could 
backfire. And if it is going to happen, we need this debate. We 
need the regular process Mr. Cicilline is telling us we need, 
otherwise we might as well have at it. We have got troops we do 
not know anything about in Niger. We are supporting a war in 
Yemen Americans do not really want. We are contemplating 
intervention in South America that again Americans do not want, 
or at least they do not want without a cogent explanation 
coming from the elected representatives here in the Congress.
    So I hope we have more robust debate, but I hardly believe 
the choice is as stark as my friend from Pennsylvania put it, 
and I utterly reject the choice he has given us. That is not 
our choice. The choice in front of us is, will we ever return 
to regular order constitutionally? Will we take responsibility 
of sending young men and young women in harm's way, or will we 
continue to take the coward's way out as we have, frankly, 
since World War II?
    This resolution is a step in the right direction, is a step 
in restoring responsibility and taking responsibility as the 
separate but coequal branch we are supposed to be and 
commensurate with the powers explicit and implied in Article I 
of the Constitution of the United States. So I support Mr. 
Cicilline's resolution and I thank him for his leadership, and 
I thank my colleagues on both sides for what I think is a vital 
and consequential debate about the deployment of U.S. force. I 
yield back the balance of my time, Mr. Chairman.
    Mr. Deutch. Thank you. I recognize myself and yield to Mr. 
Cicilline as much time as he may need.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I want to just say at the outset that the argument that was 
just made by my friends on the other side of the aisle that the 
President of the United States can do whatever he wants for 60 
days is absolutely false. The War Power Act only triggers a 60-
day period once the President has engaged the military. And he 
can only do so, according to 1541(c) in four--three 
circumstances: the President may only exercise pursuant to a 
declaration of war; a specific statutory authorization; or a 
national emergency created by attack upon the United States, 
its territories, or armed--or its armed forces.
    So it is only if the President acts pursuant to one of 
those three conditions that the 60-day clock is triggered. So, 
this notion that the President can actually do whatever he 
wants is very disturbing to hear because Article 1 vests that 
responsibility in Congress.
    So I want to correct that record. That is a false assertion 
that the President is permitted and that this bill narrows in 
any way the President's authority.
    This mirrors the exact language of the War Powers Act, this 
resolution. So, it does not narrow the President's ability at 
all. That is No. 1.
    No. 2, I always am alarmed when I hear what heads of other 
foreign governments shaping American foreign policy. There are 
just as many people who believe that Maduro uses this threat of 
military action by the United States in propaganda to rally 
people in his country to his side. The threat, when you 
consider U.S. history in this region of the world.
    So, there are lots of very smart military and diplomatic 
thinkers who think it is essential that Congress reassert its 
authority in this moment.
    And with respect to the question I never got to answer that 
Mr. Yoho asked, this is about fundamental question of war and 
peace, whether or not the Congress of the United States is 
going to fulfill its responsibility and have a serious debate 
and be accountable for what we decide. And all of the other 
countries that have been involved in this have been--have 
managed to play a productive role--the Lima Group, the 
Europeans--without the threat of military force.
    And you know what would be especially wonderful if the 
world, the Venezuelan people and the world watched the United 
States honor its Constitution, honor the rule of law as we are 
promoting democracy in Venezuela, act democratic here in 
America and not violate our Constitution, not surrender our 
responsibilities as Members of Congress. Let's show them by 
example that we debate tough issues, that Congress in the 
Constitution is given this responsibility and we meet the 
responsibility. Let's model really good behavior as a vibrant 
and strong democracy and not surrender the authority that 
Congress has by our Constitution, by the great people of this 
country.
    And so I thank the gentleman for yielding and yield back 
the balance of my time.
    Mr. Deutch. I thank, I thank the gentleman. And I yield 
back.
    Is there any further discussion on the bill?
    [No response.]
    Mr. Deutch. Seeing none, are there amendments at the desk?
    Mr. Sherman. I have an amendment at the desk.
    [The amendment offered by Mr. Sherman follows:]

    [GRAPHIC] [TIFF OMITTED] T5894.121
    
    Mr. Deutch. Mr. Sherman is recognized.
    The Clerk will please report the amendment.
    Ms. Stiles. Sherman Amendment Number 1. Amendment to the 
amendment in the nature of a substitute to H.R. 1004. Amendment 
Section 2(c) to read as follows: Rule of construction----
    Mr. Sherman. I move we dispense with reading of the 
amendment.
    Mr. Deutch. Without objection. Mr. Sherman is recognized.
    Mr. Sherman. The bill is perhaps controversial. I think it 
is well thought out and necessary. Hopefully, this amendment 
will not be controversial. If you like the bill, this makes it 
better. If you do not like the bill, this makes it better. It 
just clarifies a few things.
    First, it makes a claim that nothing in this bill is an 
authorization or a direction to the President to send military 
force into Venezuela. If the President was listening to this 
debate, I think that would be apparent to him in any case.
    Second, rule of construction is it provides that this bill 
does not prevent efforts solely for the purpose of rescuing 
United States citizens in Venezuela.
    With that, this would be regarded as a non-controversial 
amendment and move forward quickly.
    I yield back.
    Mr. Deutch. The time of the gentleman has expired.
    Is there further debate on the amendments?
    [No response.]
    Mr. Deutch. The question is on the amendment.
    All those in favor, say aye.
    Aye.
    All opposed, no.
    In the opinion of the chair, the ayes have it. And the 
amendment is agreed to.
    Are there other amendments?
    [No response.]
    Mr. Deutch. Any other request for recognition? Seeing none, 
the question is on the amendment in the nature of a substitute.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the chair, the ayes have it.
    Mr. McCaul. Mr. Chairman.
    Mr. Deutch. The gentleman is recognized.
    Mr. McCaul. I request a recorded vote.
    Mr. Deutch. A roll call vote is ordered. Clerk will please 
call the roll.
    Ms. Stiles. Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Stiles. Mr. Sherman votes aye.
    Mr. Meeks?
    [No response.]
    Ms. Stiles. Mr. Sires?
    Mr. Sires. Aye.
    Ms. Stiles. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Stiles. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Stiles. Mr. Deutch votes aye.
    Ms. Bass?
    [No response.]
    Ms. Stiles. Mr. Keating?
    Mr. Keating. Yes. Aye.
    Ms. Stiles. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Stiles. Mr. Cicilline votes aye.
    Mr. Bera?
    Mr. Bera. Aye.
    Ms. Stiles. Mr. Bera votes aye.
    Mr. Castro?
    Mr. Castro. Aye.
    Ms. Stiles. Mr. Castro votes aye.
    Ms. Titus?
    [No response.]
    Ms. Stiles. Mr. Espaillat?
    Mr. Espaillat. Aye.
    Ms. Stiles. Mr. Espaillat votes aye.
    Ms. Stiles. Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Stiles. Mr. Lieu votes aye.
    Ms. Wild?
    Ms. Wild. Aye.
    Ms. Stiles. Ms. Wild votes aye.
    Mr. Phillips?
    Mr. Phillips. Aye.
    Ms. Stiles. Mr. Phillips votes aye.
    Ms. Omar?
    Ms. Omar. Aye.
    Ms. Stiles. Ms. Omar votes aye.
    Mr. Allred?
    Mr. Allred. Aye.
    Ms. Stiles. Mr. Allred votes aye.
    Mr. Levin?
    Mr. Levin. Aye.
    Ms. Stiles. Mr. Levin votes aye.
    Ms. Spanberger?
    Ms. Spanberger. Aye.
    Ms. Stiles. Ms. Spanberger votes aye.
    Ms. Houlahan?
    Ms. Houlahan. Aye.
    Ms. Stiles. Ms. Houlahan votes aye.
    Mr. Malinowski?
    Mr. Malinowski. Aye.
    Ms. Stiles. Mr. Malinowski votes aye.
    Mr. Trone?
    Mr. Trone. Aye.
    Ms. Stiles. Mr. Trone votes aye.
    Mr. Costa?
    [No response.]
    Ms. Stiles. Mr. Vargas?
    Mr. Vargas. Aye.
    Ms. Stiles. Mr. Vargas votes aye.
    Mr. Gonzalez?
    Mr. Gonzalez. Aye.
    Ms. Stiles. Mr. Gonzalez votes aye.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Stiles. Mr. McCaul votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Stiles. Mr. Smith votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Stiles. Mr. Chabot votes no.
    Mr. Wilson?
    [No response.]
    Ms. Stiles. Mr. Perry?
    Mr. Perry. No.
    Ms. Stiles. Mr. Perry votes no.
    Mr. Yoho?
    Mr. Yoho. No.
    Ms. Stiles. Mr. Yoho votes no.
    Mr. Kinzinger?
    Mr. Kinzinger. No.
    Ms. Stiles. Mr. Kinzinger votes no.
    Mr. Zeldin?
    Mr. Zeldin. No.
    Ms. Stiles. Mr. Zeldin votes no.
    Mr. Sensenbrenner?
    [No response.]
    Ms. Stiles. Mrs. Wagner?
    Mrs. Wagner. No.
    Ms. Stiles. Mrs. Wagner votes no.
    Mr. Mast?
    Mr. Mast. Mr. Mast votes no.
    Mr. Rooney?
    [No response.]
    Ms. Stiles. Mr. Fitzpatrick?
    [No response.]
    Ms. Stiles. Mr. Curtis?
    Mr. Curtis. No.
    Ms. Stiles. Mr. Curtis votes no.
    Mr. Buck?
    [No response.]
    Ms. Stiles. Mr. Wright?
    Mr. Wright. No.
    Ms. Stiles. Mr. Wright votes no.
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. Stiles. Mr. Reschenthaler votes no.
    Mr. Burchett?
    Mr. Burchett. No.
    Ms. Stiles. Mr. Burchett votes no.
    Mr. Pence?
    Mr. Pence. No.
    Ms. Stiles. Mr. Pence votes no.
    Mr. Watkins?
    [No response.]
    Ms. Stiles. Mr. Guest?
    Mr. Guest. No.
    Ms. Stiles. Mr. Guest votes no.
    Mr. Chairman?
    Chairman Engel [presiding]. Aye.
    Ms. Stiles. Mr. Chairman votes aye.
    Chairman Engel. Are there any other members who have 
nothing recorded?
    Mr. Meeks. Mr. Chairman.
    Ms. Stiles. Mr. Meeks?
    Mr. Meeks. Vote aye.
    Ms. Stiles. Mr. Meeks votes aye.
    Mr. Costa?
    Mr. Costa. Aye.
    Ms. Stiles. Mr. Costa votes aye.
    Chairman Engel. Are there any other members? Ms. Titus?
    Mr. Wilson? How is Mr. Wilson recorded?
    Ms. Stiles. Mr. Wilson is not recorded.
    Mr. Wilson. No.
    Ms. Stiles. Mr. Wilson votes no.
    Ms. Titus. Mr. Chairman.
    Chairman Engel. How is Ms. Titus recorded?
    Ms. Stiles. Ms. Titus is not recorded.
    Ms. Titus. Yes.
    Ms. Stiles. Ms. Titus votes aye.
    Chairman Engel. Mr. Watkins?
    Mr. Watkins. No.
    Ms. Stiles. Mr. Watkins votes no.
    Chairman Engel. Anybody else?
    [No response.]
    Chairman Engel. The Clerk will report the tally.
    Ms. Stiles. Mr. Chairman, on that vote there are 25 ayes, 
and 17 noes.
    Chairman Engel. 25 ayes, and 17 noes. The amendment is 
agreed to.
    The question is to report the bill H.R. 1004, Prohibiting 
Unauthorized Action in Venezuela Act to the House, as amended, 
with the recommendation that the bill do pass.
    All in favor, say aye.
    All opposed, no.
    In the opinion of the chair, the ayes have it.
    The measure is ordered favorably reported, as amended.
    Pursuant to notice for purposes of mark-up, I now call up 
H.R. 9, the Climate Action Now Act.
    The Clerk will report the bill.
    [The Bill H.R. 9 follows: ]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Stiles. H.R. 9, To direct the President to develop a 
plan for the United States to meet its nationally determined 
contribution under the Paris Agreement, and for other purposes.
    Be it enacted by the Senate and House of Representatives of 
the United States of America in Congress assembled, Section 1. 
Short title.
    This Act may be cited as the ``Climate Action Now Act.''
    Section 2. Findings.
    Chairman Engel. Without objection, the first reading of the 
bill is dispensed with. Without objection, the bill shall be 
considered as read and open to amendment at any point.
    And at this time I recognize myself to speak on the 
legislation. I will keep my remarks brief.
    Just last week we had an impressive panel of military, 
defense, and international development experts testify about 
how climate change is a direct threat to the national security 
of the United States. This is not news. We have known it for 
decades.
    Climate change is a grave threat that transcends borders. 
And when we face pressing global security issues. The United 
States is strongest when we work shoulder to shoulder with our 
friends and partners around the world. That is why the Paris 
Agreement was such a defining moment for the future of our 
planet. The countries of the world came together to face this 
global crisis.
    At times like these, the world usually looks to the United 
States for leadership. So, when President Trump announced his 
intention to withdraw from this landmark agreement, it showed 
the world that America is on retreat. I think it was wrong. 
Every nation in the world has signed on to this agreement. If 
we withdraw, we will be the only country unwilling to step up 
to this challenge. What does that say about America's role in 
the world?
    So we can, we must do better because we already are seeing 
the consequences of our inaction: natural disasters, famines, 
instability, human suffering. The time for action to avoid the 
worst effects of climate change is rapidly closing. We must 
demonstrate to the rest of the world and to future generations 
that we are still committed to taking on this fight.
    So, today our committee is considering legislation to 
address this issue and reassert American leadership on the 
world stage. The ``Climate Action Now Act'' keeps the United 
States in the Paris Climate Accord, renewing our country's 
pledge to address climate change head on. The Paris Agreement 
allows every country to determine its own emission reduction 
targets and to develop a public plan for how to meet these 
targets.
    This bill follows that same model. It gives the 
Administration total flexibility to decide what approach we 
need to follow, and what kind of technology we need to use to 
reach our national targets. H.R. 9 gives all of us an 
opportunity to show Americans that we hear them, that we take 
their concerns seriously, and that we are taking action to 
ensure a healthier, safer, and more sustainable future. This 
should not be a partisan issue.
    I strongly support this measure. And I urge my colleagues 
to do the same.
    And I will now recognize our Ranking Member, Mr. McCaul of 
Texas, for any remarks he might have.
    Mr. McCaul. Thank you, Mr. Chairman.
    We can all agree the climate is changing, as Secretary 
Pompeo testified to, and that we need to take positive steps to 
address it. However, I oppose H.R. 9 because, among other 
problems, it attempts to codify President Obama's greenhouse 
gas reduction pledge under the Paris Agreement.
    During last week's hearing on climate change I was 
encouraged that both sides of the political aisle expressed a 
shared understanding of the national security threat of climate 
change. Witnesses invited by both Democrats and Republicans 
testified to the importance of technology and innovation to 
address the challenge.
    However, the bill before us does nothing to bolster 
research or promote innovation. Instead, it recommits the 
United States to President Obama's pledge under the Paris 
Agreement, which was submitted on behalf of the United States 
without any role of the Congress. We were not even so much as 
consulted about his pledge to cut greenhouse gases by 26 to 28 
percent below 2005 levels by 2025.
    The private sector was also not meaningfully consulted. And 
not only that but, as Mr. Worthington, Executive Director of 
the U.S. Energy Association, testified to, the Administration 
provided no cost-benefit analysis or economic justification to 
rationalize its pledge. All we have to rely on are third party 
analyses, one of which found that his commitments would cost 
the economy $250 billion in gross domestic product and 2.7 
million jobs by 2025.
    Furthermore, when asked by Mr. Zeldin at last week's 
hearing whether President Obama should have submitted the Paris 
Agreement to the Senate for ratification, all four witnesses 
unanimously, including the three invited by the Democrat 
Majority, agreed that he should have.
    Meanwhile China, the world's largest greenhouse gas 
emitter, will continue to increase its emissions through 2030 
under its Paris Agreement pledge. The United States, on the 
other hand, saw a 14 percent reduction from 2005 to 2017.
    So, instead of doubling down on a pledge that Congress had 
no role in setting, it will have an unknown and potentially 
catastrophic impact on the United States' economy, and which 
will do nothing to address China's growing emissions. I believe 
that we should work on a bipartisan bill to boost research, 
advance technology, promote innovation, and develop some real 
solutions.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Engel. Thank you, Mr. McCaul. The gentleman yields 
back.
    I realize members wish to speak on the bill and that some 
members have amendments to offer. If members have general 
remarks on the bill first, we should hear those now and then 
move on to amendments.
    Is there anyone who has general remarks on the bill? Mr. 
Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    The effects of climate change are evident today in more 
extreme temperatures, and more frequent and more intense 
natural disasters. Many studies and reports affirm a simple 
fact: both the causes and effects of climate change have been 
impacting already vulnerable communities at greater and 
disproportionate level. Lower income communities, indigenous 
people, communities of color, agrarian and other marginalized 
communities not only are bearing the brunt of the impacts of 
climate change, but these communities also have lower capacity 
to prepare for and cope with extreme weather and climate-
related events endangering their health and well-being.
    The people of the Caribbean have faced year-long drought 
and catastrophic hurricanes that are decimating agriculture. 
The Northern Triangle faces an extreme dry corridor, causing 
food shortages and further affecting migration trends.
    Across Asia rising sea levels threaten island communities. 
And in Southern Africa shifts in rain patterns strain 
agriculture production, leading to malnutrition, and 
multiplying the threat of armed conflict and extremism.
    But it is not just happening to other countries. In my 
district, Mr. Chairman, black and brown children are 
experiencing worsening asthma because of increased heat and 
pollution. Parents come to my office looking for help for their 
health care, and cannot afford--and they cannot afford it. This 
is a local and global issue. And I am glad that the Foreign 
Affairs Committee today is demonstrating that we understand the 
need to address climate change with global solutions.
    We must incorporate climate justice into all of our 
policies as we move forward. Every piece of legislation on 
climate change considered by this House, in every bill we pass, 
and in every hearing we hold we must ensure that climate 
justice is addressed, and we proactively work to protect the 
most vulnerable among us.
    Thank you, Mr. Chairman. And I yield back the remaining 
part of my time.
    Chairman Engel. The gentleman yields back. Is there anyone 
else who wishes to speak on the bill?
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    Ghandi once said that a breach of a promise is a surrender 
of truth. The United States abandoning the Paris Agreement is 
nothing short of a surrender. Our allies are watching, our 
adversaries are watching.
    We have an opportunity here to fulfill a promise, a promise 
that nearly 200 other countries have made and honored.
    We also have an opportunity to resurrect the truth about 
climate change, that it is based on objective scientific 
evidence, and that the United States' carbon footprint has 
contributed to this crisis. We can seize those opportunities by 
voting in favor of H.R. 9 today.
    On December 12th, 2015, the United States joined nearly 200 
countries in signing the Paris Agreement to combat climate 
change. As part of that agreement, the United States adopted a 
plan to reduce its carbon pollution by 26 to 28 percent below 
2005 levels by 2025. Today we stand as the only country that 
has withdrawn from that global pact. The only country.
    And even as some refuse to acknowledge the reality of the 
climate crisis, our country continues to pay the price of 
extreme natural disasters that grow in force and frequency 
which cause loss of life, destruction of infrastructure, and 
damage to our economy. It should not take one more----
    Ms. Wild [continuing]. Breaking flood or wildfire or 
hurricane or drought to do what is right.
    Enough is enough. In order to make good on our commitment, 
it is imperative that we prohibit Federal funds from being used 
to take any action to advance the withdrawal of the United 
States from the Paris Agreement.
    It is also imperative that we call on the administration to 
develop and make public a concrete plan for how the United 
States will meet the pollution reduction goals submitted to the 
world in 2015.
    Anything short of passing H.R. 9 is a signal to our allies 
that we are unreliable, a signal to our adversaries that we 
ceded this space to them, and an abdication of our most solemn 
duty to keep our constituents safe.
    Thank you. I yield back.
    Mr. Connolly. Would my friend yield for a question? Behind 
you.
    Ms. Wild. Yes.
    Mr. Connolly. I thank the gentlelady from Pennsylvania.
    I was listening intently to what she had to say and it 
thought you said we are the only nation now not a party to the 
Paris Climate Accord. Is that correct?
    Ms. Wild. That is correct.
    Mr. Connolly. So when President Trump pulled us out, we at 
least had company in Nicaragua and Syria.
    Ms. Wild. That is correct.
    Mr. Connolly. And now you tell me that they have both 
joined?
    So we do not even have Nicaragua and Syria to keep us 
company. Is that correct?
    Ms. Wild. My esteemed colleague, I do not know when 
Nicaragua decided to rejoin. But Syria ended its holdout in 
2017.
    Mr. Connolly. Wow. What a lonely place to be.
    I thank my friend.
    Ms. Wild. Thank you. I yield back.
    Mr. Yoho. Mr. Chairman?
    Chairman Engel. Are there any other members?
    Mr. Yoho?
    Mr. Yoho. Yes. I am in opposition to this. And, you know, 
again, I think politics are being played on this.
    The United States, thank God, is the only country that 
pulled out of this because they did show leadership. As 
Chairman McCaul, or Ranking Member McCaul, pointed out, from 
2005 to 2017, carbon emissions in the United States of America 
has gone down 14 percent. Our production in manufacturing has 
gone up. Our energy consumption went down 2 percent. That is 
leadership.
    China's commitment to this was, ``We will try.'' Yet, it is 
going to tie the hands of the American consumers to pay for 
China trying as they pollute?
    They are putting on coal plant after coal plant after coal 
plant around the world, not just in China but in other 
countries, increasing the CO2 footprint.
    You know, we have got LNG coming out of this country that 
is leading an energy revolution, driving down the CO2 cost and, 
you know, this whole discussion over climate change nobody is 
in denial that it is happening. But it is the cause of why it 
is happening.
    And if you look at the anthropogenic effect, yes, I am sure 
humans have contributed to it. But if you look at the natural 
causes, over 51 percent of it, according to science, since we 
are so hell bent on science, is coming from solar activity. I 
do not believe you are going to stop that.
    And so to have a bill coming out basically attacking the 
president for pulling out of the climate deal I think is pure 
politics and it is below the bipartisanship of this committee.
    And I yield back.
    Chairman Engel. The gentleman yields back. Is there any 
other member that wishes to speak on either side?
    Yes, Mr. Mast?
    Mr. Mast. Thank you, Mr. Chairman.
    You know, I would just also want to point out as we discuss 
this that many of the members of this committee were not 
present when we had Secretary Tillerson here discussing the 
Paris Climate Accord, discussing how the United States of 
America does not simply contribute billions of dollars to a 
program and just leave the conversation, just give up those 
resources and say, no, we are not going to play a role in 
this--we are not going to see what happens to those dollars--go 
off and do with it whatever you like.
    That is not what occurs with this. In fact, we are still 
present at every conversation having to do with the Paris 
Climate Accord. We are still actively engaged in this.
    We have just made it a point to say, listen, you are not 
going to get our money and our resources and give us no more 
say than the people--the countries that are the least 
contributors to these programs, very, very specifically pointed 
out by Secretary Tillerson at the time that he came here.
    And I would point out that many were not present for that 
conversation. With that, I yield back to our Ranking Member.
    Chairman Engel. Are there any other members? Mr. Wright, 
did you have your hand up?
    Mr. Wright. I did have a comment on the bill, Mr. Chairman, 
and that is I sense an incongruity from my friends on the other 
side.
    We just finished a markup on a bill because Democrats are 
afraid of what President Trump might do unilaterally but it did 
not seem to bother you when President Obama did things 
unilaterally like this Paris Accord without submitting it to 
the Senate.
    And the reason there was Republican opposition to it then 
and now is it placed the United States of America at a distinct 
economic disadvantage vis-a-vis other countries in the world.
    Now, why any president or any Congress would want to place 
our own country at an economic disadvantage is mind-boggling 
and that is why we--that is why I will certainly be voting no 
on this.
    Thank you.
    Chairman Engel. Thank you. The gentleman yields back.
    Anyone else?
    Let us now move to amendments. Is there anyone that wishes 
to submit an amendment?
    Mr. McCaul. Mr. Chairman?
    Chairman Engel. Mr. McCaul?
    Mr. McCaul. I have an amendment in the nature of a 
substitute at the desk and I ask for its consideration at this 
time.
    Chairman Engel. The clerk will please report the amendment.
    Ms. Stiles. McCaul Amendment Number 1, amendment in the 
nature of a substitute to H.R. 9, offered by Mr. McCaul. Strike 
all after the enacting clause and----
    [The amendment offered by Mr. McCaul follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McCaul. Mr. Chairman, I would dispense with the reading 
request.
    Chairman Engel. Without objection, a further reading of the 
amendment will be dispensed with. A point of order is reserved.
    The gentleman is recognized for 5 minutes in support of the 
amendment.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to say from the outset, echoing what Mr. Mast 
indicated, and that is that we never pulled out of the Paris 
Agreement. We are still under the Paris Agreement.
    The president just signaled his intention to possibly pull 
out in the future if it was not fixed. My amendment simply 
requires any new U.S. commitments under Paris come to Congress 
along with an economic analysis.
    It recognizes a government policy that enjoys broad 
bipartisan support is needed to address the challenge of 
climate change, including policies that promote private sector-
led innovation and technological advancement.
    It requires that President Obama's pledge to cut greenhouse 
gas emissions by 26 to 28 percent below 2005 levels by 2025 be 
accomplished by an economic justification and cost-benefit 
analysis, which his administration never provided to the 
Congress.
    It also requires any future commitments by the United 
States to be subjected to congressional notification and 
include detailed information about the economic impact of such 
commitments, including what it will mean for the poor, for 
world energy markets, for our economic competitiveness, and for 
the United States national security interests.
    Under the Paris Agreement, the United States is just one of 
12 countries out of the top 100 emitters to have no meaningful 
role for its legislature to provide input on our pledges.
    The president alone should not have that power to 
unilaterally reduce our emissions by 2025 when China, the 
world's top emitter, will not do the same until 2030.
    In short, my amendment calls for a bipartisan approach to 
addressing climate change including technology and innovation 
that adds a role for Congress and ensures that our commitments 
are based on economic reality.
    I urge support, and with that, I yield back.
    Chairman Engel. The gentleman yields back.
    Is there further debate on the amendment?
    Mr. Keating. Mr. Chairman?
    Chairman Engel. Mr. Keating? The gentleman is recognized 
for 5 minutes to speak on the amendment.
    Mr. Keating. Thank you, Mr. Chairman.
    I speak in opposition to this amendment. The principal 
purpose of the Climate Action Now Act is to keep the United 
States in the Paris Climate Accord. This amendment fails to 
accomplish this most basic task, and for that reason alone, I 
oppose it.
    As you know, the Paris Agreement is the first truly 
universal agreement among nations to tackle climate change. 
Rarely is there consensus among nearly all nations on any 
topic.
    But with the Paris Agreement, leaders from around the world 
collectively agreed that climate change is driven by human 
behavior, that it is a threat to the environment and all of 
humanity, and that global action is needed to stop it. It has 
also created a clear framework for all countries to make 
emission reduction commitments.
    At present, 197 countries--every nation on the Earth, with 
the last signatory being war-torn Syria--have adopted the Paris 
Agreement. If we follow through, as the president has 
announced, we will be the only country on Earth unwilling to 
step up to this challenge.
    The U.S. has retreated from leadership positions. With this 
amendment, we are retreating from even followership positions. 
It would be a terrible shame if we followed this president, 
ignored the threats of climate change, and ceded our role in 
the global stage to other countries.
    I urge my colleagues to oppose this amendment and I yield 
back.
    Chairman Engel. The gentleman yields back. Is there further 
debate on the amendment?
    Seeing none, the question is on the amendment.
    All those on Mr. McCaul's amendment--all those in favor say 
aye.
    All opposed, say no.
    In the opinion of the chair, the noes have it and the 
amendment is not agreed to.
    Mr. McCaul. Mr. Chairman?
    Chairman Engel. Mr. McCaul?
    Mr. McCaul. I request a recorded vote.
    Chairman Engel. A roll call vote is ordered and the clerk 
will please call the roll.
    Ms. Stiles. Mr. Sherman?
    [No response.]
    Mr. Meeks?
    [No response.]
    Mr. Sires?
    [No response.]
    Mr. Sires. No.
    Ms. Stiles. Mr. Sires votes no.
    Mr. Connolly?
    [No response.]
    Mr. Deutch?
    [No response.]
    Ms. Bass?
    [No response.]
    Mr. Keating?
    [No response.]
    Mr. Keating. No.
    Ms. Stiles. Mr. Keating votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    . Mr. Cicilline votes no.
    Mr. Bera?
    Mr. Bera. No.
    Ms. Stiles. Mr. Bera votes no.
    Mr. Castro?
    [No response.]
    Ms. Titus?
    [No response.]
    Mr. Espaillat?
    Mr. Espaillat. No.
    Ms. Stiles. Mr. Espaillat votes no.
    Mr. Lieu?
    Mr. Lieu. No.
    Ms. Stiles. Mr. Lieu votes no.
    Ms. Wild?
    Ms. Wild. No.
    Ms. Stiles. Ms. Wild votes no.
    Mr. Phillips?
    Mr. Phillips. No.
    Ms. Stiles. Mr. Phillips votes no.
    Ms. Omar?
    Ms. Omar. No.
    Ms. Stiles. Ms. Omar votes no.
    Mr. Allred?
    Mr. Allred. No.
    Ms. Stiles. Mr. Allred votes no.
    Mr. Levin?
    Mr. Levin. No.
    Ms. Stiles. Mr. Levin votes no.
    Ms. Spanberger?
    Ms. Spanberger. No.
    Ms. Stiles. Ms. Spanberger votes no.
    Ms. Houlahan?
    Ms. Houlahan. No.
    Ms. Stiles. Ms. Houlahan votes no.
    Mr. Malinowski?
    Mr. Malinowski. No.
    Ms. Stiles. Mr. Malinowski votes no.
    Mr. Trone?
    Mr. Trone. No.
    Ms. Stiles. Mr. Trone votes no.
    Mr. Costa?
    Mr. Costa. No.
    Ms. Stiles. Mr. Costa votes no.
    Mr. Vargas?
    Mr. Vargas. No.
    Ms. Stiles. Mr. Vargas votes no.
    Mr. Gonzalez?
    Mr. Gonzalez. No.
    Ms. Stiles. Mr. Gonzalez votes no.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Stiles. Mr. McCaul votes aye.
    Mr. Smith?
    [No response.]
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Stiles. Mr. Chabot votes aye.
    Mr. Wilson?
    [No response.]
    Mr. Perry?
    Mr. Perry. Aye.
    Ms. Stiles. Mr. Perry votes aye.
    Mr. Yoho?
    Mr. Yoho. Aye.
    Ms. Stiles. Mr. Yoho votes aye.
    Mr. Kinzinger?
    Mr. Kinzinger. Aye.
    Ms. Stiles. Mr. Kinzinger votes aye.
    Mr. Zeldin?
    Mr. Zeldin. Aye.
    Ms. Stiles. Mr. Zeldin votes aye.
    Mr. Sensenbrenner?
    [No response.]
    Mrs. Wagner?
    Mrs. Wagner. Aye.
    Ms. Stiles. Mrs. Wagner votes aye.
    Mr. Mast?
    Mr. Mast. Aye.
    Ms. Stiles. Mr. Mast votes aye.
    Mr. Rooney?
    [No response.]
    Mr. Fitzpatrick?
    [No response.]
    Mr. Curtis?
    Mr. Curtis. Aye.
    Ms. Stiles. Mr. Curtis votes aye.
    Mr. Buck?
    [No response.]
    Mr. Wright?
    Mr. Wright. Aye.
    Ms. Stiles. Mr. Wright votes aye.
    Mr. Reschenthaler?
    Mr. Reschenthaler. Aye.
    Ms. Stiles. Mr. Reschenthaler votes aye.
    Mr. Burchett?
    Mr. Burchett. Aye.
    Ms. Stiles. Mr. Burchett votes aye.
    Mr. Pence?
    Mr. Pence. Aye.
    Ms. Stiles. Mr. Pence votes aye.
    Mr. Watkins?
    Mr. Watkins. Aye.
    Ms. Stiles. Mr. Watkins votes aye.
    Mr. Guest?
    Mr. Guest. Aye.
    Ms. Stiles. Mr. Guest votes aye.
    Mr. Chairman?
    Chairman Engel. No.
    Ms. Stiles. Mr. Chairman votes no.
    Chairman Engel. Is there anyone who has not been recorded 
who would like to do so?
    How is Mr. Connolly recorded?
    Ms. Stiles. Mr. Connolly is not recorded.
    Mr. Connolly. No.
    Ms. Stiles. Mr. Connolly votes no.
    Chairman Engel. Mr. Deutch--how was Mr. Deutch recorded?
    Ms. Stiles. Mr. Deutch is not recorded.
    Mr. Deutch. No.
    Ms. Stiles. Mr. Deutch votes no.
    Chairman Engel. Anybody else? Mr. Wilson?
    Mr. Wilson. Aye.
    Ms. Stiles. Mr. Wilson votes aye.
    Chairman Engel. OK. If there are no other votes, the clerk 
will report the tally.
    [Pause.]
    Chairman Engel. Clerk will report the tally.
    Ms. Stiles. Mr. Chairman, on that vote there were 16 ayes 
and 21 noes.
    Chairman Engel. 16 ayes and 21 noes. The amendment is not 
agreed to.
    Do other members seek recognition?
    Mr. Curtis. Mr. Chairman, I have an amendment at the desk 
and I ask for its consideration at this time.
    Chairman Engel. Mr. Curtis?
    The gentleman has 5 minutes.
    The clerk will report the amendment.
    Ms. Stiles. Curtis Amendment Number 1, page four after line 
23 insert the following paragraph.
    [The amendment offered by Mr. Curtis follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Curtis. Mr. Chairman, I move that we dispense with the 
reading of the amendment.
    Chairman Engel. Without objection, further reading of the 
amendment will be dispensed with. A point of order is reserved.
    Mr. Curtis?
    Mr. Curtis. Thank you, Mr. Chairman.
    My amendment would simply note the nationally determined 
contributions like greenhouse gas emissions of the United 
States compared with those of other countries.
    This includes China, which in the 2015 Paris Agreement has 
actually been permitted to increase emissions to the year 2013. 
As we engage in the debate about climate change, I believe it 
is important to note that over the past decade the U.S. has 
decreased annual carbon dioxide emissions by hundreds of 
millions of tons while in the last 20 years China has tripled 
its carbon dioxide emissions.
    Without a level playing field and accountability from high-
emissions countries like China, the United States' efforts to 
reduce emissions will have little if any effect on the planet 
overall.
    I urge my colleagues to adopt this common sense amendment 
to improve transparency, and I yield my time.
    Chairman Engel. The gentleman yields back his time.
    Is there further debate on the amendment?
    Mr. Malinowski?
    Mr. Malinowski. Thank you, Mr. Chairman.
    I will speak in opposition to the amendment. It sounds to 
me as if all of us here or most of us recognize that climate 
change is a serious issue, a serious threat to our economy, our 
national security, to our well being.
    The vast Majority of Americans believe that and believe 
that we need to do something about it. In many States, 
including my own--New Jersey--State governments have set very 
ambitious goals to reduce greenhouse gas emissions.
    I think we also all agree that there is absolutely nothing 
that the United States can do alone to meet this threat if 
large developing economies like China do not do their part.
    So would not it be great if there were an international 
agreement that imposed no requirements on the United States 
apart from those that we voluntarily commit to while also 
requiring large developing economies like China to, for the 
very first time, make commitments to reduce greenhouse gas 
emissions themselves?
    Wait a second. We have that. It is the Paris Accords. That 
is the function of the Paris Accords. It is not to require 
anything of the United States other than what we have committed 
to because the commitments are strictly voluntary but for the 
very, very first time China has said what it plans to do, and 
it is entirely transparent because we know exactly what 
commitments they have made.
    And, in fact, China has committed that by 2030 it will 
reduce carbon emissions per unit of GDP by 60 to 65 percent 
from 2005 levels to 2030, and despite being the world's largest 
greenhouse gas emitter, China has created the world's largest 
carbon market, pumped three times as much money into renewables 
as the United States, surpassed us in terms of both the number 
of electric vehicles on the road, the number of available 
charging stations.
    So my worry is not that we are somehow letting China off 
the hook, because we are not. My worry is that China is 
actually poised to beat us in the race to a clean energy future 
with all of the economic implications that will have--that 
China is taking advantage of our inexplicable decision to 
withdraw from Paris to seize the mantle of global leadership on 
this issue.
    And so this bill simply says we do not cede leadership to 
anybody. We are not going to be the only country that pulls out 
of the Paris Accord and allow China to basically lord it over 
us in the international community to say, we are doing 
something and the Americans are not, and it very simply asks 
the president to tell us how we are going to meet the 
commitments and it allows him to do it in whatever way he 
chooses.
    Let us keep this bill simple. Let us remain a global 
leader. I am opposed to this amendment for that reason, and I 
yield.
    Chairman Engel. Is there any further comments on the 
amendment?
    Mr. Zeldin. Mr. Chairman?
    Chairman Engel. Yes, Mr. Zeldin?
    Mr. Zeldin. Thank you, Mr. Chairman.
    I would like to speak in support of the gentleman's 
amendment. I think we have some different takes with regards to 
exactly what China and some other countries are agreeing to.
    My concern with the Paris Agreement was with the reality 
that China is the world's largest greenhouse gas emitter but 
for the first 13 years of the deal they are agreeing to 
continue to increase emissions and you can actually give China 
more credit than India.
    But just to recap, each nation under the Paris Agreement 
can do whatever they want to reach a long-term goal. The only 
thing India and China are committed to at the international 
level is to issue a report to the U.N. on their climate 
mitigation efforts next year and to keep up the reporting every 
5 years.
    There is no enforcement mechanism. Both nations have issued 
carbon mitigation plans to reach the vague targets of the Paris 
Accords that require them to drastically take coal-fired power 
plants offline.
    And since China has an authoritarian centrally planned 
economy, they are making some progress. India is not, and it is 
an election year. So any efforts to rework their reliance on 
coal are on pause until at least their election is over later 
this year.
    With regards to the other countries around the world, they 
are not stepping up to the plate and we have a concern with 
that. I would love to see the United States be in a position to 
enter into a deal where other countries contributing to this 
issue are stepping up like we are.
    And we have seen a significant reduction in emissions over 
the course of about a dozen years, if you look at the numbers 
between about 2005 and 2017. That is why I was grateful of, I 
believe, Republican Mr. McCaul's amendment as well.
    I think it is important to be engaging the private sector 
and technology and let us do it on an international level. Let 
us talk about economic concerns in our Nation just like they 
can talk about economic concerns in theirs.
    As we are setting our own commitment concerned about our 
country, concerned about--we need to be concerned about energy 
costs. But this bill does not make any reference to the costs 
that are going to go up on my constituents, and I wish that it 
had and that is why I was grateful for Mr. McCaul's amendment.
    But I just feel like as far as the agreement in total, that 
these other nations that are doing so much to contribute to 
this problem really should have stepped up more than they did. 
And additionally, I think it is greatly concerning that 
Congress did not have a role to play in this process.
    You had other countries--the EU and--I mean, other nations 
and in their legislatures they would have debates over this. 
Some would have votes. Some of them would involve their 
nation's population.
    Here, President Obama unilaterally agreed to a deal where 
China was agreeing to increase emissions for the next 13 years. 
I believe that China should have done more.
    I believe that India should have been committed to do more. 
There are other nations that should have been committing to do 
more and actually some made commitments that they are not going 
to attain that were unreasonable. Now, what about that?
    I mean, with a straight face when you look at, you know, a 
commitment being made by the EU where we know that there is no 
way that they are going to meet that target--that is also 
something that should be debated here in Congress. I also 
believe it should have been submitted as a treaty. But I would 
like to yield to Mr. Yoho.
    Mr. Yoho. And I just want to remind people that China has 
made a lot of commitments. If we look at the commitment of not 
militarizing the Spratly or Parsley Islands while they were in 
the Rose Garden with President Obama--committed not to do that 
at the same time they were doing it.
    They committed to allow Hong Kong to remain an autonomous 
region for 50 years. But 22 years into it, Xi Jinping says as 
far as he is concerned it is null and void.
    And so I am not concerned with that China is doing. I look 
at America's leadership and what we are doing in reducing 
footprint--the footprint of CO2.
    I yield back to the gentleman. Thank you for----
    Mr. Zeldin. Yes, and I think it is--I think it is very 
important for us to be able to enter into a good deal for the 
United States. That should be our goal--what is the best deal 
that we can get for the United States--and I would argue that 
we could have gotten a better deal.
    And I would encourage whoever the president is now, whoever 
the next president is, whoever else is serving here in Congress 
that this is an important topic for, you know, us and future 
Congresses and future presidents to be debating.
    We should just try to get more results from the countries 
that are contributing the most to the issue.
    The United States has been leading and we should continue 
to lead. Other nations need to do their part.
    I yield back.
    Mr. Sires [presiding]. Does the gentleman yield back? Is 
there further debate?
    Mr. Connolly for 5 minutes.
    Mr. Connolly. I thank the chair. I got to say, my head is 
spinning. First we have a Republican Party here in the Congress 
that, by and large, has consistently denied climate change.
    We were looking at the international affairs section of the 
president's budget and in 140 pages he makes reference to 
climate change once. Once.
    Now we hear from our friend from New York. His criticism is 
not that we are doing something about climate change but that 
others are not doing enough.
    And I wonder if the irony of that position strikes anyone 
else. It certainly struck me. If that is your critique, we are 
happy to join in.
    And my friend from New York ended his remarks by saying the 
United States is doing its share--others ought to follow. Well, 
actually as the gentlewoman from Pennsylvania pointed out, the 
United States is the only country of 197 that is not a member--
a signatory--to the Paris Climate Accord.
    So you cannot have it both ways. If you want to really 
toughen things up we are happy to join you. But first, we got 
to participate in the Paris Climate Accord or we give away all 
moral authority, as President Trump did.
    My friend from Florida, Mr. Yoho, brought up a lot of 
issues regarding China and I would probably join him in most of 
those issues. But they have very little to do with the bill in 
front of us at the moment.
    I guess when we cannot make the argument about the 
substance of climate change we revert to other behavior we do 
not like. But the fact of the matter is our own military, the 
IPCC, an intergovernmental committee of this administration, 
are unanimous in looking at the threats of global warming and 
the very alarming rise, unprecedented in 800,000 years, of CO2.
    It is going to affect our way of life, our children, and 
our grandchildren, and at some point maybe we can get off the 
talking points. Maybe we can get off the ideological precepts 
that bind us in straitjackets and think about future 
generations and our obligation to them.
    I oppose the amendment on those grounds. I yield back, Mr. 
Chairman.
    Mr. Sires. Congressman Perry wants to be heard.
    Mr. Perry. Thank you, Mr. Chairman.
    It is my understanding that our friends Turkey and Russia 
have not ratified the agreement either. But with that, I will 
turn my time over to or yield to the gentleman from New York, 
Mr. Zeldin.
    Mr. Zeldin. Thank you, and I appreciate the gentleman from 
Virginia's attempt to put words in my mouth and to speak for me 
and for other members on our side of the aisle.
    We think for ourselves over here. We are not sheep just to 
do whatever others in our party State. We have difference of 
opinion and we debate them.
    We share our ideas in certain things that we have a problem 
with--that I, speaking for myself, have a problem with is that 
these other nations are not stepping up and doing their part.
    I have a problem of what the economic consequence is going 
to be for a constituent of mine who is really struggling to be 
able to pay their bills. We should be talking about the 
economics of the proposal.
    I think that is a--it is a fair point. As Members of 
Congress we just had a debate on an amendment with regards to 
the use of force in Venezuela and the gentleman from Virginia 
was passionately talking about how Congress should take back 
their Article I powers and how important it is for Congress to 
step up and not cede our power to the executive branch.
    And then the next bill that comes up the gentleman from 
Virginia is here passionately talking about how important it is 
for this chamber to cede our power to the executive branch.
    There is no concern at all that Congress has no role to 
play whatsoever with the negotiation and entry into this 
agreement without coming to Congress, without consulting us?
    Well, what about us as Republicans and Democrats working 
together? Chairman Engel has stated for years of being able to 
serve on this committee, Chairman Royce before him, Mike 
McCaul--members on both sides of the aisle wanted to talk, 
Republicans and Democrats, about how we can move forward with 
our Nation's foreign policy. There are so many issues that are 
before our country that are so important.
    This is one that there is a valid amendment being offered. 
You can oppose it. You can support it. But do not put words in 
my mouth. We have important concerns with regards to the Paris 
Agreement. I believe that we can enter into a better deal.
    I have a district that is almost completely surrounded by 
water on the east end of Long Island. I would encourage the 
gentleman from Virginia to come visit. We have great wineries 
on the North Fork. It is a great place to come, especially 
between Memorial Day and Labor Day.
    We could talk about rising sea levels. We could talk about 
what we can do to improve water quality, to improve air 
quality. We might not agree on all the solutions but let us 
talk about it.
    But, you know, right now with this particular debate this 
conversation, whether this amendment, the bill at large, Mr. 
McCaul's amendment, I do not think that we should be insulted 
for not all agreeing with each other in this committee. Having 
a difference of opinion between the legislative branch and the 
executive branch--I think that disagreement is healthy.
    But let us not put words into each other's mouth and 
instead let us talk about solutions. I think that there are--
that there are companies that have new technologies where we 
can figure out ways to reduce emissions without the executive 
branch or maybe without even the legislative branch forcing 
that company to make that change.
    We should have a conversation as to why emissions went down 
between 2005 and 2017. What went right? What are some companies 
doing better?
    I appreciate--I look forward to an opportunity to work with 
the gentleman from Virginia as opposed to just debating him 
here, and I am not going to attempt to put words in this mouth.
    But, you know, you want to talk about irony, using the 
words that came out of his mouth from one speech to the next, 
from one bill to the next about whether or not we should be 
ceding our power or taking advantage of our Article 1 powers.
    This agreement should have been submitted to the Senate as 
a treaty and when I posed that question to all four witnesses 
including the three Democratic witnesses who were here, they 
all agreed that this should have been submitted to the Senate 
as a treaty.
    But there was a philosophy of the last administration. When 
we asked them about the Iran nuclear deal, if you remember, 
there were a few members here who asked Secretary Kerry why was 
this not submitted to Congress?
    Why was it not submitted to the Senate as a treaty? And his 
answer was that he would not--that they would not have been 
able to get it passed, and I do not think that is a good 
excuse.
    Whether it is the last administration, the current 
administration or the next. There is a lot of debate to be had 
over the course of the next 2 years and whoever the next--you 
know, what the American people decide who the president is 
going to be for the next 4 years, the next 4 years after that.
    And whether it is a Republican or a Democrat, this is an 
issue that is going to outlast every single one of us at this--
in this chamber and I think a lot of people at home and across 
this country would appreciate it if we could find a way to do a 
better job working together on this important issue of climate 
change.
    Mr. Sires. Congressman Levin is recognized for 5 minutes.
    Mr. Levin. Thank you, Mr. Chairman.
    I just want to say a few things about the situation about 
China and some of these arguments.
    First of all, the main thing that happened between 2005 and 
2012 is called the Great Recession, and that is the main reason 
why our green gas emissions went down.
    Also, some of us in the States moved forward on energy 
efficiency and renewable standards while this body did not do 
much to advance the ball. So we had some leadership from the 
States.
    In terms of China, first of all, we have to look at the 
history of carbon emissions. Even in 2100, even with China's 
growing economy--and I agree over reliance on coal--20 percent 
of cumulative greenhouse gas emissions will come from this 
country and have come from this country in 2100, 17 percent 
from the European Union and 12 percent from China, even then.
    So we have contributed much more of the problem. We will 
have even many years hence.
    But on another level, I do not care what China does. I care 
about American leadership, and as Mr. Malinowski says, I care 
about our leadership in the economy.
    We are being left behind on high-speed rail, on 
electrification of vehicles, on the employment of solar and 
wind and offshore wind and on energy storage and on micro grids 
and so many other fronts.
    This is going to be the next 50 years of fortunes in global 
capitalism. We are being left behind because we are scared. We 
are scared to lead. We are scared to just admit the reality of 
science.
    There is no debate over how much of greenhouse gas 
emissions are caused by human activity. There is no real 
scientific debate over this.
    Let us go. Let us reestablish American leadership. The 
Paris Accords are a faint first step of what we need to do and 
my kids, for one, are not going to let us sit around here and 
debate endlessly.
    They want action. We need to get on with passing this and 
then we need to take a lot of concrete steps to reduce our 
carbon emissions and show American leadership on the new 
sustainable economy that is to come.
    Thank you, Mr. Chairman. I yield back.
    Mr. Connolly. Will my friend yield?
    Mr. Levin. My brother, I yield to you.
    Mr. Connolly. I thank--I thank the gentleman from Michigan.
    You know, the gentleman from New York accuses people of 
putting words in his mouth. That is not what happened.
    The accusation was not that he spoke words that in fact he 
did not. It was that one's head was spinning over trying to 
follow the logic on the other side of the aisle.
    Does anyone here really believe that the amendments we are 
going to consider and have considered to this bill are designed 
to improve it? They are, in fact, designed to derail the bill.
    They are designed to slow this down and that is a 
consistent pattern of our friends on the other side of the 
aisle when it comes to this subject.
    I do not remember my friend from New York complaining when 
the president of the United States denied climate change. 
Denied the recommendation of his own intergovernmental panel. 
Denied the findings of the IPCC.
    It is not putting words in your mouth. It is holding you to 
account for a very sorry record of empirical denial about a 
subject that is going to affect every person and every living 
thing on this planet.
    It is consequential to withdraw from an international 
agreement we helped spearhead. Yes, maybe it should have been a 
treaty. I hardly believe that is a dispositive issue. You got 
to begin somewhere. Why not begin as an agreement?
    And I find it ironic that the charge was made that the 
previous administration left out the Congress. I seem to recall 
a delegation of us getting ready to go on an airplane to Paris 
to celebrate the signing of the agreement that was blocked by 
the Republican Speaker of the House of Representatives so that 
no one from Congress on the House side was able to go and 
celebrate that moment.
    It has been a deliberate consistent pattern of science 
denial and deflection rather than deal with the subject, and 
one wonders why.
    I thank my friend from Michigan for yielding.
    Chairman Engel [presiding]. The gentleman's time has 
expired.
    Are there any other members who wish to be heard?
    Mr. Deutch. Mr. Chairman? Mr. Chairman?
    Chairman Engel. Mr. Deutch?
    Mr. Deutch. I move to strike the last word.
    Mr. Chairman, I just wanted to respond to one thing that we 
heard, which is this idea that this is an issue that we can 
debate today but whatever we do today we are going to be 
debating it through the end of this administration and the next 
administration and administrations that come after that.
    Where is the urgency from my colleagues on this issue? This 
is not an issue that can wait 2 years and 4 years and 8 years 
and 12 years. It will be too late. That is why it is so 
important for us to move forward.
    I support the Climate Action Now Act. I applaud the work of 
Representative Castor, the chair of the Select Committee on the 
Climate Crisis.
    As Floridians, Representative Castor and I know the impact 
of climate change because it is happening right now. That is 
why we need action right now. Not next year, not after the next 
election, not after four more Presidential elections.
    It will be too late. When will we sense the urgency? How 
many warmest years on record do we have to endure before there 
is finally some acknowledgment that this is a crisis?
    The whole world came together in Paris to make commitments 
that would respond to the threat of climate change. Under this 
administration, America has now turned its back on those 
commitments, turned its back on the world, and turned its back 
on the future generations who will not have the luxury of a 
decision point.
    That is where we are now. It is our decision that we are 
making for them and we have got to get it right.
    So I support Representative Castor's work as the chair of 
the select committee. I support her strong legislation to bring 
us back to the global stage, to bring us back to our 
commitments to take action on climate change and to do it right 
now.
    And I would also like to take this moment to extend an 
invitation. I would like to invite my Republican colleagues to 
join the bipartisan Climate Solutions Caucus. We have got to 
move climate change beyond politics.
    I agree with that, and I thank the 45 Republicans who 
joined this bipartisan dialog on the real threats and possible 
solutions last Congress, and I invite all of my Republican 
colleagues to join me and my co-chair, Francis Rooney, in this 
Congress to move forward.
    It is important to have bipartisan conversations. The fact 
is that alternative energy companies that will secure our 
energy future need to be part of those conversations. So do 
energy companies who are working hard on sustainability, and 
military experts who have warned of the threats of climate 
migration and famine and drought, scientists who have measured 
the impact on local economies from regional impacts that are 
happening today across the country.
    Fortune 500 companies who are already doing their part to 
reduce their carbon footprint. Last year several caucus members 
and I drafted a legislative tool to help reduce carbon 
emissions and I am going to take advantage of this moment to 
encourage my colleagues to look at the Energy Innovation and 
Carbon Dividend Act, which is a companion--should be a 
companion to this Climate Action Now Act because it would 
reduce carbon pollution by 45 percent by 2030 with an over 90 
percent reduction by 2050 and it would create over 2 million 
new jobs in a decade and it would prevent 13,000 pollution--
related deaths in the United States annually.
    The Energy Innovation and Carbon Dividend Act would put a 
price on pollution and the fees collected would go back to the 
American people to ease the transition to a clean carbon-
neutral economy that would be felt by lower income and middle 
income families. That is how we address those concerns.
    I applaud the committee here for taking up H.R. 9 and I 
invite my colleagues to join the Climate Solutions Caucus and I 
ask them to look at real efforts that would address this crisis 
right now. That it what our legislation will do, and I go back 
to where I started.
    If we do not act now, we are nearing a point of no return 
when it comes to our retirement, when it comes to our health, 
when it comes to our economy.
    I strongly support H.R. 9 to recommit us to leadership and 
to climate action and to doing it right now.
    I thank the chairman. I yield back the balance of my time.
    Chairman Engel. The gentleman yields back.
    Is there anyone else who wishes to be heard on this 
amendment?
    Mr. Mast?
    Mr. Mast. Thank you, Mr. Chairman. I find it amazing that 
we are having a debate about this without anybody really on 
either side bringing up a whole lot of the facts on reductions 
of emissions--where the U.S. stands, where China stands, where 
India stands, where the EU stands, what has gone on per capita, 
how many metric tons, what has gone on in the energy sector.
    So let us talk a little bit about some of the facts that 
exist out there. U.S.--highest decline in CO2 emissions, you 
know, really in modern history.
    Now, we still have higher emissions per capita than most 
others. I am not going to deny that. That is a fact as well. So 
per capita we do use more. But highest decline in emissions 
from any country out there, 758 million metric tons between 
2005 and 2017.
    At the same period of time, China up 50 percent. Their 
emissions grew by 3 billion metric tons at the same time as 
ours fell by 758 million metric tons. India up 88 percent at 
the exact same time.
    So I think we should talk about some of these, talk about 
where this has occurred in the U.S. energy sector. Largely in 
the U.S. energy sector, this has occurred as a result of the 
growing or, rather, really beginning with the growth in the 
shale industry in the United States.
    That is really when that time began, contributing to what 
happened in our energy sector going to natural gas. That is 
what has precipitated most of that decline in the United 
States.
    I think as we debate this and we talk about this on both 
sides it is important that we throw out some of the numbers 
related to what the U.S. has actually been going out there and 
achieving.
    Not that we should ever sit there and rest on our laurels 
to date or simply boast of the past. That is not our job to do. 
But it is important to bring it up as we have this debate.
    And I yield back.
    Mr. Curtis. Will the gentleman yield?
    Mr. Mast. Who asked for that? Absolutely, Mr. Curtis, I 
will yield the remainder of my time to you.
    Mr. Curtis. Thank you.
    Mr. Chairman, as the author of this amendment, I would like 
to point out that very little of our discussion has actually 
had to do with my amendment. I suspect it has been good therapy 
for all of us. And with that in mind, I would like to indulge 
in just a little bit of therapy and then perhaps----
    Chairman Engel. Welcome to the Congress, Mr. Curtis.
    Mr. Curtis. You know, I feel much like the last bill. There 
is actually a lot that we agree on here and we get caught up on 
some partisan issues.
    I would like to remind everybody that the intent of this 
bill is to measure performance. Those of us who have worked to 
increase performance in business, in athletics, anything, know 
that what we measure improves, and that is simply all this 
amendment is doing is asked to measure performance and to 
compare how we are doing.
    The one gentleman that did actually refer to my amendment 
discussed competition between China and United States. I 
actually think this would introduce a healthy competition 
between countries.
    And so with that in mind, Mr. Chairman, I yield my time and 
hope we can soon vote on my amendment.
    Chairman Engel. The gentleman yields back his time.
    Anybody else wish to speak?
    Mr. Phillips?
    Mr. Phillips. Thank you, Mr. Chairman.
    I feel compelled to set the record straight as we talk 
about our country's performance relative to emissions.
    The truth is that in 2018 our emissions are projected to 
increase by 3.4 percent--an increase, not a decrease, as some 
on the other side have noted. And at a time when the world 
desperately needs to decrease emissions, ours are increasing.
    In a year where more dirty coal plants closed in our 
country than any other year in history, our emissions are 
increasing and that means vast declined in coal use were not 
enough to offset the other harms that are being caused by this 
administration, like efforts to weaken standards for ozone 
pollution, repeal the clean power plan, repeal the waters of 
the United States rule, withdraw the mercury effluent rule, 
eliminate the lead risk reduction program, repeal the rule 
regulating coal ash, weaken emission standards for brick and 
tile manufacturers, rollback of vehicle emission standards, 
withdraw a proposed rule reducing air pollutants at sewage 
treatment plants, and yes, withdraw from the Paris climate 
agreement.
    So for us to pretend that we are a model actor here, in my 
estimation, is inappropriate. We should not pretend that there 
is no problem and I think it is time that we fulfill our 
responsibilities to work with our friends and partners around 
the world to combat this threat.
    Therefore, I urge my fellow members to vote no on this 
amendment.
    I yield back.
    Chairman Engel. The gentleman yields.
    Any further comments?
    Seeing none, the question is on the amendment.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the chair, the noes have it and the 
amendment is not agreed to.
    Mr. Curtis. Mr. Chairman, may I ask for a recorded vote?
    Chairman Engel. A roll call vote is ordered and the clerk 
will please call the roll.
    Ms. Stiles. Mr. Sherman?
    [No response.]
    Mr. Meeks?
    Mr. Meeks. No.
    Ms. Stiles. Mr. Meeks votes no.
    Mr. Sires?
    Mr. Sires. No.
    Ms. Stiles. Mr. Sires votes no.
    Mr. Connolly?
    Mr. Connolly. Nay.
    Ms. Stiles. Mr. Connolly votes no.
    Mr. Deutch?
    [No response.]
    Ms. Bass?
    Ms. Bass. No.
    Ms. Stiles. Ms. Bass votes no.
    Mr. Keating?
    Mr. Keating. No.
    Ms. Stiles. Mr. Keating votes no.
    Mr. Cicilline?
    [No response.]
    Mr. Bera?
    Mr. Bera. No.
    Ms. Stiles. Mr. Bera votes no.
    Mr. Castro?
    Mr. Castro. No.
    Ms. Stiles. Mr. Castro votes no.
    Ms. Titus?
    [No response.]
    Mr. Espaillat?
    Mr. Espaillat. No.
    Ms. Stiles. Mr. Espaillat votes no.
    Mr. Lieu?
    Mr. Lieu. No.
    Ms. Stiles. Mr. Lieu votes no.
    Ms. Wild?
    Ms. Wild. No.
    Ms. Stiles. Ms. Wild votes no.
    Mr. Phillips?
    Mr. Phillips. No.
    Ms. Stiles. Mr. Phillips votes no.
    Ms. Omar?
    [No response.]
    Mr. Allred?
    Mr. Allred. No.
    Ms. Stiles. Mr. Allred votes no.
    Mr. Levin?
    Mr. Levin. No.
    Ms. Stiles. Mr. Levin votes no.
    Ms. Spanberger?
    Ms. Spanberger. No.
    Ms. Stiles. Ms. Spanberger votes no.
    Ms. Houlahan?
    Ms. Houlahan. No.
    Ms. Stiles. Ms. Houlahan votes no.
    Mr. Malinowski?
    Mr. Malinowski. No.
    Ms. Stiles. Mr. Malinowski votes no.
    Mr. Trone?
    Mr. Trone. No.
    Ms. Stiles. Mr. Trone votes no.
    Mr. Costa?
    Mr. Costa. No.
    Ms. Stiles. Mr. Costa votes no.
    Mr. Vargas?
    Mr. Vargas. No.
    Ms. Stiles. Mr. Vargas votes no.
    Mr. Gonzalez?
    Mr. Gonzalez. No.
    Ms. Stiles. Mr. Gonzalez votes no.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Stiles. Mr. McCaul votes aye.
    Mr. Smith?
    Mr. Smith. Aye.
    Ms. Stiles. Mr. Smith votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Stiles. Mr. Chabot votes aye.
    Mr. Wilson?
    Mr. Wilson. Aye.
    Ms. Stiles. Mr. Wilson votes aye.
    Mr. Perry?
    Mr. Perry. Aye.
    Ms. Stiles. Mr. Perry votes aye.
    Mr. Yoho?
    Mr. Yoho. Aye.
    Ms. Stiles. Mr. Yoho votes aye.
    Mr. Kinzinger?
    Mr. Kinzinger. Aye.
    Ms. Stiles. Mr. Kinzinger votes aye.
    Mr. Zeldin?
    Mr. Zeldin. Aye.
    Ms. Stiles. Mr. Zeldin votes aye.
    Mr. Sensenbrenner?
    [No response.]
    Mrs. Wagner?
    Mrs. Wagner. Aye.
    Ms. Stiles. Mrs. Wagner votes aye.
    Mr. Mast?
    Mr. Mast. Aye.
    Ms. Stiles. Mr. Mast votes aye.
    Mr. Rooney?
    [No response.]
    Mr. Fitzpatrick?
    [No response.]
    Mr. Curtis?
    Mr. Curtis. Aye.
    Ms. Stiles. Mr. Curtis votes aye.
    Mr. Buck?
    [No response.]
    Mr. Wright?
    Mr. Wright. Aye.
    Ms. Stiles. Mr. Wright votes aye.
    Mr. Reschenthaler?
    Mr. Reschenthaler. Aye.
    Ms. Stiles. Mr. Reschenthaler votes aye.
    Mr. Burchett?
    Mr. Burchett. Aye.
    Ms. Stiles. Mr. Burchett votes aye.
    Mr. Pence?
    Mr. Pence. Aye.
    Ms. Stiles. Mr. Pence votes aye.
    Mr. Watkins?
    Mr. Watkins. Aye.
    Ms. Stiles. Mr. Watkins votes aye.
    Mr. Guest?
    Mr. Guest. Aye.
    Ms. Stiles. Mr. Guest votes aye.
    Mr. Chairman?
    Chairman Engel. No.
    Ms. Stiles. Mr. Chairman votes no.
    Chairman Engel. Are there any others who seek to vote who 
have not voted?
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Stiles. Mr. Deutch votes no.
    Chairman Engel. Anybody else?
    The clerk will tally the vote.
    [Pause.]
    Ms. Stiles. Mr. Chairman, on that vote, there are 17 ayes 
and 22 noes.
    Chairman Engel. 17 ayes and 22 noes. The amendment is not 
agreed to.
    Do other members seek recognition?
    Mr. Wright?
    Mr. Wright. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Engel. Clerk will please report the amendment.
    Ms. Stiles. Wright Amendment Number 1, at the end of the 
bill add the following new section: Section 6 effective date. 
This act takes effect on the date----
    [The amendment offered by Mr. Wright follows:]

    [GRAPHIC] [TIFF OMITTED] T5894.135
    
    Chairman Engel. Without objection, further reading of the 
amendment will be dispensed with. A point of order is reserved.
    The gentleman is recognized for 5 minutes in support of 
amendment.
    Mr. Wright. Thank you, Mr. Chairman.
    My amendment is very simple and it changes the effective 
date of H.R. 9 to whenever the secretary of State can certify 
that China and Russia are making emission reduction commitments 
equivalent to those made by the United States.
    President Obama unilaterally committed us to reducing our 
emissions by 25 to 28 percent, below 2005 levels by 2025. 
Fulfilling this commitment has the potential, as our Ranking 
Member has noted, to reduce U.S. gross domestic product by $250 
billion and eliminate 2.7 million American jobs.
    This makes no sense, however, when you consider that in 
2017 when emissions in the rest of the world were increasing, 
U.S. carbon emissions were the lowest since 1992.
    Why would we commit to further reducing our emissions at 
such great cost to our economy and the prosperity of the 
American people when other countries like Russia, India, and 
China continue to pollute the Earth at unprecedented levels?
    Before we make additional economic sacrifices to reduce our 
emissions, we need to see comparable action from the worst 
greenhouse gas offenders. Otherwise, it is all for nothing.
    This amendment is not a pull out. It is a delay. Let us 
stop putting the United States at an economic disadvantage vis-
a-vis the rest of the world, and I urge my colleagues to 
support this amendment and I yield back.
    Chairman Engel. The gentleman yields back. Is there further 
debate on the amendment?
    Ms. Wild?
    Ms. Wild. Thank you, Mr. Chairman. I rise in opposition to 
this amendment, which requires China and Russia commit to 
emissions reductions that are equivalent to the emissions 
reductions commitments of the United States. But the amendment 
does not define what equivalent means.
    Equivalent to what? It is not clear what exactly we are 
binding ourselves to or expecting from other countries with 
this amendment.
    Second, the language appears to suggest that the United 
States to wait to act until other countries, specifically China 
and Russia, commit to reduce emissions. Yet, those countries 
have already committed to climate action.
    This amendment delays the effective date of the bill, 
wrongly uses China and Russia as excuses for inaction, and 
risks ceding global leadership on this issue.
    However, the amendment serves as a reminder that the whole 
world, including the United States, China, and Russia, need to 
do more if we are to be spared from the worst impacts of 
climate change.
    The Chinese government acknowledged in its most recent 
comprehensive assessment of climate change that it is already 
affected by worsening floods, more extreme droughts, diminished 
fishery productivity, and other ecological changes.
    It recognizes that a warming climate will threaten the 
country's agricultural production, make economically important 
cities vulnerable to flooding, and eventually dry out many of 
the country's rivers.
    Under the Paris Agreement, China committed to leveling off 
its carbon emissions no later than 2030 and reducing carbon 
emissions per unit of gross domestic product by 60 to 65 
percent from 2005 levels by 2030.
    Those targets are not as ambitious as ours. Remember, each 
nation gets to submit its own. But Beijing is acting quite 
aggressively to reduce emissions and deploy clean energy 
technologies.
    Despite being the world's largest greenhouse gas emitter 
since 2005, China has created the world's largest carbon 
market, pumped approximately three times as much money into 
renewables as the United States, and surpassed the United 
States in terms of both the number of electric vehicles on the 
road and the number of publicly available charging stations.
    China is also embracing the nexus between climate and 
security. In 2017, China signed on to a joint statement with 
the European Union, terming rising global temperatures a root 
cause of instability.
    And on the global stage, the Trump administration's 
effective withdrawal from the Paris Agreement has created a 
global leadership void that China has been keen to exploit.
    And Russia--Russia is the world's fifth largest greenhouse 
gas emitter and is one of 13 nations that signed the Paris 
Agreement but still has not formally ratified it.
    Under the Paris Agreement, Russia proposed to reduce 
emissions 25 percent to 30 percent below 1990 levels by 2030. 
Russia said for years that it would delay ratification until 
the parties agreed on rules for implementation, which just 
happened at the 24th Conference of Parties in Poland in 
December 2018.
    And now, according to the Los Angeles Times, Russia is 
moving closer to ratifying the Paris climate agreement later 
this year. In January, the Russian Union of Industrialists and 
Entrepreneurs said its members supported ratification, citing 
concerns over economic restrictions and competitiveness.
    Russia also recognizes that future trade deals with the EU 
could be in jeopardy without ratification. The European 
Commission has said it prefers to deal with countries that back 
the Paris Accord.
    A 2017 deal between Japan and the EU specifically referred 
to implementation of the climate accord. It takes courage to 
experiment with new ways of doing things and to leave old 
habits behind.
    The U.S. has always led on big global challenges and now we 
must seize on the commitments from around the world and apply 
the unmatched strength and ingenuity of the American government 
and private sector to the problem of combating climate change.
    This amendment wrongly uses China and Russia as excuses for 
inaction and that I why I stand in firm opposition to it.
    Thank you. I yield back.
    Chairman Engel. The gentlewoman yields back.
    Is there further debate on the amendment?
    Seeing none, the question is on the amendment.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the chair, the noes have it, and the 
amendment is not agreed to.
    Mr. Wright. Mr. Chairman, I request a recorded vote.
    Chairman Engel. A roll call vote is ordered, and the clerk 
will please call the roll.
    Ms. Stiles. Mr. Sherman?
    [No response.]
    Mr. Meeks?
    Mr. Meeks. No.
    Ms. Stiles. Mr. Meeks votes no.
    Mr. Sires?
    Mr. Sires. No.
    Ms. Stiles. Mr. Sires votes no.
    Mr. Connolly?
    [No response.]
    Mr. Deutch?
    [No response.]
    Ms. Bass?
    Ms. Bass. No.
    Ms. Stiles. Ms. Bass votes no.
    Mr. Keating?
    Mr. Keating. No.
    Ms. Stiles. Mr. Keating votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Stiles. Mr. Cicilline votes no.
    Mr. Bera?
    Mr. Bera. No.
    Ms. Stiles. Mr. Bera votes no.
    Mr. Castro?
    Mr. Castro. No.
    Ms. Stiles. Mr. Castro votes no.
    Ms. Titus?
    [No response.]
    Mr. Espaillat?
    Mr. Espaillat. No.
    Ms. Stiles. Mr. Espaillat votes no.
    Mr. Lieu?
    Mr. Lieu. No.
    Ms. Stiles. Mr. Lieu votes no.
    Ms. Wild?
    Ms. Wild. No.
    Ms. Stiles. Ms. Wild votes no.
    Mr. Phillips?
    Mr. Phillips. No.
    Ms. Stiles. Mr. Phillips votes no.
    Ms. Omar?
    [No response.]
    Mr. Allred?
    Mr. Allred. No.
    Ms. Stiles. Mr. Allred votes no.
    Mr. Levin?
    Mr. Levin. No.
    Ms. Stiles. Mr. Levin votes no.
    Ms. Spanberger?
    Ms. Spanberger. No.
    Ms. Stiles. Ms. Spanberger votes no.
    Ms. Houlahan?
    Ms. Houlahan. No.
    Ms. Stiles. Ms. Houlahan votes no.
    Mr. Malinowski?
    Mr. Malinowski. No.
    Ms. Stiles. Mr. Malinowski votes no.
    Mr. Trone?
    [No response.]
    Mr. Costa?
    Mr. Costa. No.
    Ms. Stiles. Mr. Costa votes no.
    Mr. Vargas?
    Mr. Vargas. No.
    Ms. Stiles. Mr. Vargas votes no.
    Mr. Gonzalez?
    Mr. Gonzalez. No.
    Ms. Stiles. Mr. Gonzalez votes no.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Stiles. Mr. McCaul votes aye.
    Mr. Smith?
    [No response.]
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Stiles. Mr. Chabot votes aye.
    Mr. Wilson?
    Mr. Wilson. Aye.
    Ms. Stiles. Mr. Wilson votes aye.
    Mr. Perry?
    Mr. Perry. Aye.
    Ms. Stiles. Mr. Perry votes aye.
    Mr. Yoho?
    Mr. Yoho. Aye.
    Ms. Stiles. Mr. Yoho votes aye.
    Mr. Kinzinger?
    Mr. Kinzinger. Aye.
    Ms. Stiles. Mr. Kinzinger votes aye.
    Mr. Zeldin?
    Mr. Zeldin. Aye.
    Ms. Stiles. Mr. Zeldin votes aye.
    Mr. Sensenbrenner?
    [No response.]
    Mrs. Wagner?
    Mrs. Wagner. Aye.
    Ms. Stiles. Mrs. Wagner votes aye.
    Mr. Mast?
    Mr. Mast. Aye.
    Ms. Stiles. Mr. Mast votes aye.
    Mr. Rooney?
    [No response.]
    Mr. Fitzpatrick?
    [No response.]
    Mr. Curtis?
    Mr. Curtis. Aye.
    Ms. Stiles. Mr. Curtis votes aye.
    Mr. Buck?
    Mr. Buck. Aye.
    Ms. Stiles. Mr. Buck votes aye.
    Mr. Wright?
    Mr. Wright. Aye.
    Ms. Stiles. Mr. Wright votes aye.
    Mr. Reschenthaler?
    [No response.]
    Mr. Burchett?
    Mr. Burchett. Aye.
    Ms. Stiles. Mr. Burchett votes aye.
    Mr. Pence?
    Mr. Pence. Aye.
    Ms. Stiles. Mr. Pence votes aye.
    Mr. Watkins?
    Mr. Watkins. Aye.
    Ms. Stiles. Mr. Watkins votes aye.
    Mr. Guest?
    Mr. Guest. Aye.
    Ms. Stiles. Mr. Guest votes aye.
    Mr. Chairman?
    Chairman Engel. No.
    Ms. Stiles. Mr. Chairman votes no.
    Chairman Engel. Are there any other members that wish to be 
recorded?
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Stiles. Mr. Deutch votes no.
    Mr. Connolly. Mr. Chairman?
    Chairman Engel. Mr. Connolly?
    Mr. Connolly. I vote nay.
    Ms. Stiles. Mr. Connolly votes no.
    Chairman Engel. Anybody else?
    The clerk will report the tally.
    Let's hold. Mr. Trone?
    Ms. Stiles. You are not recorded, sir.
    Mr. Trone. No.
    Ms. Stiles. Mr. Trone votes no.
    Mr. Chairman, on that vote, there were 16 ayes and 23 noes.
    Chairman Engel. 16 ayes and 23 noes. The amendment is not 
agreed to.
    Do other members seek recognition?
    Mr. Buck. Mr. Chairman?
    Chairman Engel. Yes?
    Mr. Buck. I have an amendment at the desk.
    Chairman Engel. Mr. Buck. The clerk will please report the 
amendment.
    Ms. Stiles. ``Buck Amendment No. 1.
    At the end of the bill, add the following new section.
    Section 6. Recognizing the duty of the Federal Government 
to create a Green New Deal.
    (a) Findings. Congress finds the following:
    The October 2018 report entitled, `Special Report on Global 
Warming of 1.5 Celsius' by the Intergovernmental Panel on 
Climate Change and the November 2018 Fourth National Climate 
Assessment Report found that human activity''----
    Chairman Engel. Without objection, further reading of the 
amendment will be dispensed with.
    [The amendment offered by Mr. Buck follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. A point of order is reserved.
    The gentleman is recognized for 5 minutes in support of his 
amendment.
    Mr. Buck. Thank you, Mr. Chairman.
    We are here to discuss a serious problem, the socialist 
takeover of the Democratic Party. The idea that Washington 
knows best is just oozing from every pore of the People's House 
these days. This bill is no different.
    The underlying bill, the Climate Action Now Act, is nothing 
more than a progressive temper tantrum after President Trump 
wisely withdrew us from the flawed Paris Climate Agreement. I 
ask my colleagues, what did this sage and sensible climate deal 
that President Obama did not even bother submitting as a treaty 
offer us as a nation? I will tell you exactly what we got from 
the deal.
    A big stocking full of coal, coal that is completely 
useless because we cannot use it to heat our homes. We have an 
empty agreement that makes people feel good about how the U.S. 
is, quote, ``doing something,'' quote, while China and Russia 
are able to continue emitting greenhouse gases with impunity 
for another 13 years.
    We are being asked to spend billions, if not trillions, of 
dollars to meet these emissions goals. And Democrats' schemes 
will kill jobs, raise America's energy bills, kick more people 
from the middle class, and limit our country's global 
leadership capabilities, just so we can feel good about 
ourselves. That does not sound like global leadership. It 
sounds like the Democrats' fantasy to remove our private 
sector's power and remake America into a government-controlled 
socialist state.
    This brings me to another socialist climate fantasy of the 
Democratic Party, the Green New Deal. Speaker Pelosi said this 
fantasyland plan is, quote, ``about jobs. It is about good-
paying green jobs. It is about public health, clean air, and 
clean water for our children. It is about defending national 
security.'' End of quote.
    Even Newsweek, which is not exactly a bastion of 
conservative thought, commented that, quote, ``The Climate 
Action Now Act would fall far short of instilling the broad, 
sweeping reforms that the Green New Deal calls for.''
    This plan that Congresswoman Alexandria Ocasio-Cortez and 
Senator Ed Markey introduced is transformational, 
transformational in that it will turn America into the 
socialist state that Bernie Sanders has cried for since he 
spent his honeymoon on Soviet Russia.
    The Green New Deal is a government takeover of our Nation's 
economy that puts Washington's social planners in control. 
While some on the left have argued that it is the only way to 
stop our world from ending in a decade, I do not believe 
killing all the cows and making my colleagues from Hawaii and 
Puerto Rico take a boat to work every day will really save the 
world.
    Among other highlights from the Green New Deal, we will 
replace every building in the United States; we will completely 
cut out all fossil fuels in 10 years; we will outlaw combustion 
engines, and guarantee a job for every person, whether or not 
they want to work.
    An analysis Chairman Burr recently released from Senate 
consideration showed that the Green New Deal will raise an 
average American family's power bill by $3,800 per year. And 
even worse, we will be asking our kids and grandkids to foot 
the astounding $93 trillion bill to realize this punch-drunk 
fantasy.
    This plan will do nothing to help our economy. It will only 
serve to halt profitable industries, hurt American families, 
and burden us with such a great debt that we will not be able 
to defend ourselves if we are attacked by a foreign adversary.
    No wonder my Democratic colleagues are nervous about being 
held accountable for their plan. Their political courage was on 
display when the Senate voted 0 in favor, 57 opposed, and 43--
that is right 43--present votes. In fact, a sponsor of this 
legislation, Congresswoman Castor, did not commit to bring the 
Green New Deal up for a vote.
    My amendment gives my colleagues exactly that opportunity. 
Adopt my amendment and give the House the opportunity to stand 
and be counted on this measure.
    Mr. Chairman, I yield back.
    Chairman Engel. I raise a point of order that the amendment 
is not germane.
    Does any member wish to be heard on the point of order?
    Mr. Buck. Mr. Chairman?
    Chairman Engel. Yes?
    Mr. Buck. I do not understand why it would not be germane. 
It is an environmental bill in front of the committee right 
now, and this is an environmental amendment to the bill.
    Chairman Engel. The amendment relates to a subject to which 
there is no reference in the text before us. The objective of 
the amendment is unrelated to the objective of H.R. 9.
    Mr. Buck. Mr. Chairman, may I be heard?
    Chairman Engel. The gentleman is recognized for 5 minutes.
    Mr. Buck. Mr. Chairman, I think the clean air and clean 
water are in both pieces of legislation. I think that the 
intent is the same. I am sure that my Democratic colleagues 
understand the financial burdens that their current legislation 
places on us, and I am sure they understand that the Green New 
Deal, while it would go further, no doubt, it would still place 
huge burdens on us. And I believe that the relevance, the 
germaneness is clear.
    If this were a piece of legislation solely dealing with 
jobs and solely dealing with some non-related issue, I would 
agree with the chair. But I would ask the chair to reconsider 
his ruling.
    Mr. Connolly. Parliamentary inquiry, Mr. Chairman.
    Chairman Engel. Well, let me rule again. The chair finds 
that the amendment is not germane.
    Mr. Buck. Mr. Chairman, I ask for a vote on that, please.
    Chairman Engel. State your parliamentary inquiry.
    Mr. Connolly. My parliamentary inquiry was--you have just 
answered it--has the chair made a ruling?
    Chairman Engel. Yes.
    Mr. Connolly. I thank the chair.
    Chairman Engel. Who else seeks recognition?
    Mr. Buck. Mr. Chairman, I asked for a vote on that.
    Mr. Cicilline. Point of order, Mr. Chairman. There is no 
vote on a--there is nothing pending to request a vote on. The 
ruling has been made.
    Mr. Buck. Mr. Chairman, I appeal the ruling of the chair.
    Chairman Engel. The gentleman is appealing the rule of the 
chair.
    Mr. Cicilline. Move to table. Mr. Chairman, I vote to 
table.
    Chairman Engel. The vote is on the motion to table.
    All those in favor say aye.
    All those opposed say no.
    In my opinion, the ayes have it.
    Mr. Buck. Mr. Chairman?
    Chairman Engel. Yes?
    Mr. Buck. I ask for the yeas and nays on that, please.
    Chairman Engel. The yeas and nays have been asked for and 
are ordered.
    The clerk will call the roll.
    Ms. Stiles. Mr. Sherman?
    [No response.]
    Ms. Stiles. Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Stiles. Mr. Meeks votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Stiles. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Stiles. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Stiles. Mr. Deutch votes aye.
    Ms. Bass?
    [No response.]
    Ms. Stiles. Mr. Keating?
    Mr. Keating. Aye.
    Ms. Stiles. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Stiles. Mr. Cicilline votes aye.
    Mr. Bera?
    Mr. Bera. Aye.
    Ms. Stiles. Mr. Bera votes aye.
    Mr. Castro?
    Mr. Castro. Aye.
    Ms. Stiles. Mr. Castro votes aye.
    Ms. Titus?
    Ms. Titus. Aye.
    Ms. Stiles. Ms. Titus votes aye.
    Mr. Espaillat?
    Mr. Espaillat. Aye.
    Ms. Stiles. Mr. Espaillat votes aye.
    Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Stiles. Mr. Lieu votes aye.
    Ms. Wild?
    Ms. Wild. Aye.
    Ms. Stiles. Ms. Wild votes aye.
    Mr. Phillips?
    Mr. Phillips. Aye.
    Ms. Stiles. Mr. Phillips votes aye.
    Ms. Omar?
    [No response.]
    Mr. Allred?
    Mr. Allred. Aye.
    Ms. Stiles. Mr. Allred votes aye.
    Mr. Levin?
    Mr. Levin. Aye.
    Ms. Stiles. Mr. Levin votes aye.
    Ms. Spanberger? Ms. Spanberger?
    [No response.]
    Ms. Stiles. Ms. Houlahan?
    Ms. Houlahan. Aye.
    Ms. Stiles. Ms. Houlahan votes aye.
    Mr. Malinowski?
    Mr. Malinowski. Aye.
    Ms. Stiles. Mr. Malinowski votes aye.
    Mr. Trone?
    Mr. Trone. Aye.
    Ms. Stiles. Mr. Trone votes aye.
    Mr. Costa? Mr. Costa? Mr. Costa?
    Mr. Costa. Aye.
    Ms. Stiles. Mr. Costa votes aye.
    Mr. Vargas?
    Mr. Vargas. Aye.
    Ms. Stiles. Mr. Vargas votes aye.
    Mr. Gonzalez?
    Mr. Gonzalez. Aye.
    Ms. Stiles. Mr. Gonzalez votes aye.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Stiles. Mr. McCaul votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Stiles. Mr. Smith votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Stiles. Mr. Chabot votes no.
    Mr. Wilson?
    Mr. Wilson. No.
    Ms. Stiles. Mr. Wilson votes no.
    Mr. Perry?
    Mr. Perry. No.
    Ms. Stiles. Mr. Perry votes no.
    Mr. Yoho?
    Mr. Yoho. No.
    Ms. Stiles. Mr. Yoho votes no.
    Mr. Kinzinger?
    Mr. Kinzinger. No.
    Ms. Stiles. Mr. Kinzinger votes no.
    Mr. Zeldin?
    Mr. Zeldin. No.
    Ms. Stiles. Mr. Zeldin votes no.
    Mr. Sensenbrenner?
    [No response.]
    Mrs. Wagner?
    Mrs. Wagner. No.
    Ms. Stiles. Mrs. Wagner votes no.
    Mr. Mast?
    Mr. Mast. No.
    Ms. Stiles. Mr. Mast votes no.
    Mr. Rooney?
    [No response.]
    Mr. Fitzpatrick?
    [No response.]
    Mr. Curtis?
    Mr. Curtis. No.
    Ms. Stiles. Mr. Curtis votes no.
    Mr. Buck?
    Mr. Buck. No.
    Ms. Stiles. Mr. Buck votes no.
    Mr. Wright?
    Mr. Wright. No.
    Ms. Stiles. Mr. Wright votes no.
    Mr. Reschenthaler?
    [No response.]
    Mr. Burchett?
    Mr. Burchett. No.
    Ms. Stiles. Mr. Burchett votes no.
    Mr. Pence?
    Mr. Pence. No.
    Ms. Stiles. Mr. Pence votes no.
    Mr. Watkins?
    Mr. Watkins. No.
    Ms. Stiles. Mr. Watkins votes no.
    Mr. Guest?
    Mr. Guest. No.
    Ms. Stiles. Mr. Guest votes no.
    Mr. Chairman?
    Chairman Engel. Aye.
    Ms. Stiles. Mr. Chairman votes aye.
    Chairman Engel. Are there any others who seek to vote?
    Ms. Spanberger. How did I vote?
    Ms. Stiles. Ms. Spanberger, you are not recorded yet.
    Ms. Spanberger. Aye.
    Ms. Stiles. Mr. Spanberger votes aye.
    Chairman Engel. Anyone else who has not voted who would 
like to vote at this time?
    The clerk will report the results.
    Ms. Stiles. Mr. Chairman, on that vote, there are 23 ayes 
and 17 noes.
    Chairman Engel. 23 ayes and 17 noes. The ruling of--the 
motion to table is agreed to. The ruling of the chair that the 
amendment is not germane is sustained.
    Is there further debate or amendment?
    Mr. Zeldin. Mr. Chairman, I have an amendment at the desk 
and ask for its immediate consideration at this time.
    Chairman Engel. For what purpose does the gentleman from 
New York seek recognition?
    Mr. Zeldin. I have an amendment at the desk and I would ask 
for immediate consideration.
    Chairman Engel. The gentleman from New York has 5 minutes.
    Mr. Zeldin. This amendment would require that the Paris 
Agreement obtain ratification from the Senate. The Paris 
Climate Agreement was a treaty----
    Chairman Engel. Will the gentleman suspend? I just want to 
make sure the clerk will report the amendment before the 
gentleman speaks.
    Ms. Stiles. ``Zeldin Amendment No. 1.
    At the end of the bill, add the following section:
    Section 6. Effective date. This Act shall take effect''----
    Chairman Engel. Without objection, further reading of the 
amendment will be dispensed with.
    [The amendment offered by Mr. Zeldin follows:]

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. A point of order is reserved.
    The gentleman is recognized for 5 minutes in support of his 
amendment.
    Mr. Zeldin. Thank you, Mr. Chairman.
    This amendment would require that the Paris Agreement 
obtain ratification from the Senate. The Paris Climate 
Agreement was a treaty in every sense of the term. The United 
States Constitution says that treaties must obtain the advice 
and consent of the Senate before the United States may lawfully 
enter into the agreement.
    President Obama deemed the Paris Agreement to not be a 
treaty in order to evade constitutional review. While the duly 
elected legislatures in other nations like Canada and the 
European Union posted hearings, debates, and, ultimately, voted 
on the Paris Accord, President Obama chose to bypass the 
Constitution and entered into this sweeping international 
agreement without seeking congressional approval.
    These types of agreements should be agreed to in a 
transparent manner that follows the Constitution and the law. I 
support many overall goals here, but the United States 
approached this entire Paris Climate Agreement all wrong. Other 
nations made modest commitments pegged to their GDP growth, 
while President Obama made a unilateral pledge to bring 
emissions 25 to 28 percent below 2005 levels by 2025. There are 
some very important practical issues with that pledge regarding 
feasibility which especially include unmanageable time 
constraints and energy cost increases for our constituents.
    Last week, we held a hearing on this issue, and every 
single witness agreed that the Senate should ratify any future 
Paris Climate Agreement. Any international deal going forward 
needs congressional input in a vote that lays out the 
negotiating goals and a ratification vote after the fact.
    That is why I am offering this amendment today and 
encourage every member to support it.
    I yield back the rest of my time.
    Chairman Engel. The gentleman yields back.
    The gentleman from Michigan, Mr. Levin, is recognized for 5 
minutes.
    Mr. Levin. Thank you, Mr. Chairman.
    I rise in opposition to this amendment. My friend from New 
York earlier in the day was saying, let's have discussions 
about how we can achieve these objectives and approve, you 
know, and tackle climate change. But this amendment is simply a 
delay tactic.
    The amendment would delay the effective date of this bill 
until the Senate ratifies the Paris Agreement. But the Paris 
Agreement does not require Senate ratification. The President 
had authority to enter into the Paris Agreement, derived from 
the Constitution. The Senate approved the United Nations 
Framework Convention on Climate Change and Domestic Law. The 
United States enters into international agreements all the time 
without Senate ratification.
    This language indefinitely delays the effective date of 
this bill. The gentleman knows very well the Senate has no 
intention of ratifying this. It is a pure delay tactic, and I 
urge my colleagues to vote no.
    Thank you.
    Chairman Engel. I thank the gentleman.
    Anyone else seek recognition?
    Mr. Perry, you are recognized for 5 minutes.
    Mr. Perry. Mr. Chairman, I yield to my friend, Mr. Zeldin.
    Mr. Zeldin. Thank you, Mr. Perry.
    And to my colleague who has just spoken, there have been a 
lot of speeches today where we are putting words into the 
mouths of Republicans. This is a genuine concern that was 
expressed last week. We had Democratic witnesses and one 
Republican witness, and all four agreed that this should have 
been submitted as a treaty.
    And I had an exchange with one of my other colleagues on 
the other side aisle to an earlier amendment, and that 
colleague on your side of the aisle also acknowledged the fact. 
Now I do not know, I have not spoken to every single member on 
your side of the aisle as to whether or not you believe the 
Paris Agreement should have been submitted as a treaty. I am 
not going to attempt to try to speak for anyone I have not 
spoken to on the other side of the aisle.
    But it is a genuine belief that the Paris Agreement should 
have been submitted as a treaty. It was a genuine belief that 
the Iran nuclear deal should have been submitted as a treaty. 
It is OK if you want to disagree with us, but where we request 
a treaty to be submitted to the Senate for ratification, just 
to make the claim that it is simply a delaying tactic, with all 
due respect, I mean, just understand that there are people who 
believe that the Paris Agreement was a treaty that should have 
been submitted. There are people who believe that there should 
have been hearings, that there should have been public debate 
and votes, and input by Congress.
    If you disagree that Congress should have a role to play in 
agreeing to the Paris Agreement, you can have that position, 
but it is our position on our side of the aisle at least--I am 
speaking for myself--that the Paris Agreement should have been 
treated as a treaty.
    But, with all due respect to Mr. Levin, we have not had a 
chance really to meet in person. Just understand that we 
genuinely have that position on our side of the aisle.
    Mr. Levin. Will the gentleman yield? Will the gentleman 
yield?
    Mr. Zeldin. Yes, sir.
    Mr. Levin. Yes, thank you so much, and I really appreciate 
your comments. And I really do take your concern to be genuine.
    Last week, we had no one here from the State Department. It 
is the State Department that makes the determination about 
whether something like this needs to go to the Senate. The 
State Department made that determination at the time.
    But, in any event, I and my colleagues--and I wish it were 
more bipartisan--feel strongly that the Paris Accord is a 
modest first step in a long, urgent, urgent road to move much 
faster to tackle climate change. I have not heard, honestly, I 
do not think, a single word from that side of the room today 
about concrete ideas that you wish to put forward to move our 
country faster to tackle climate change or our world. And in 
fact, in all the time that you were in total control of this 
Congress, not a single thing happened.
    So, I do appreciate the genuineness of your concern. I look 
forward to working with you on so many matters, but I have to 
oppose the amendment.
    Thank you so much.
    Mr. Zeldin. I appreciate the gentleman for his remarks. 
Earlier he was speaking about actions that were taken by the 
States of New York and in California, and crediting the States 
for the reduction in emissions over the course of the last 10 
or 15 years. There are others who have a different take. They 
believe that market forces contributed to the reduction of 
emissions. And we could debate it. Maybe we will have a 
disagreement.
    But, with regards to the last point that the gentleman just 
stated as far as what we feel on our side of the aisle, many of 
my colleagues who I have spoken to believe that market forces 
and new technology and companies making the right decisions, 
that the economy, that a lot of positive progress with regards 
to the environment can be done, not by the governmental 
intervention of New York and California as much as the use of 
technology and new ways to be able to provide----
    Mr. Levin. I know your time is expiring.
    Let me just say that for the last 7 years before I joined 
the Congress, I ran a private company that drove climate change 
in the State--I was not referring to New York and California. I 
was proudly, although silently, referring to Michigan. And it 
was government policy, but also market forces. I am all for 
market forces, but they need clear signals from the government.
    And I so appreciate the discussion.
    Mr. Zeldin. Thank you. I yield back.
    Chairman Engel. The gentleman's time has expired.
    Any other members who wish to speak?
    Seeing none, the question is on the amendment.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the chair, the noes have it, and the 
amendment is not agreed to.
    Mr. Zeldin. Mr. Chair, I request a recorded vote.
    Chairman Engel. There has been a request for a recorded 
vote, and the clerk will please call the role.
    Ms. Stiles. Mr. Sherman?
    [No response.]
    Mr. Meeks?
    Mr. Meeks. No.
    Ms. Stiles. Mr. Meeks votes no.
    Mr. Sires?
    Mr. Sires. No.
    Ms. Stiles. Mr. Sires votes no.
    Mr. Connolly?
    [No response.]
    Mr. Deutch?
    [No response.]
    Ms. Bass?
    Ms. Bass. No.
    Ms. Stiles. Ms. Bass votes no.
    Mr. Keating?
    Mr. Keating. No.
    Ms. Stiles. Mr. Keating votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Stiles. Mr. Cicilline votes no.
    Mr. Bera?
    Mr. Bera. No.
    Ms. Stiles. Mr. Bera votes no.
    Mr. Castro?
    Mr. Castro. No.
    Ms. Stiles. Mr. Castro votes no.
    Ms. Titus?
    [No response.]
    Mr. Espaillat?
    Mr. Espaillat. No.
    Ms. Stiles. Mr. Espaillat votes no.
    Mr. Lieu?
    Mr. Lieu. No.
    Ms. Stiles. Mr. Lieu votes no.
    Ms. Wild?
    Ms. Wild. No.
    Ms. Stiles. Ms. Wild votes no.
    Mr. Phillips?
    Mr. Phillips. No.
    Ms. Stiles. Mr. Phillips votes no.
    Ms. Omar?
    [No response.]
    Mr. Allred?
    Mr. Allred. No.
    Ms. Stiles. Mr. Allred votes no.
    Mr. Levin?
    Mr. Levin. No.
    Ms. Stiles. Mr. Levin votes no.
    Ms. Spanberger?
    Ms. Spanberger. No.
    Ms. Stiles. Ms. Spanberger votes no.
    Ms. Houlahan?
    Ms. Houlahan. No.
    Ms. Stiles. Ms. Houlahan votes no.
    Mr. Malinowski?
    Mr. Malinowski. No.
    Ms. Stiles. Mr. Malinowski votes no.
    Mr. Trone?
    [No response.]
    Mr. Costa?
    Mr. Costa. No.
    Ms. Stiles. Mr. Costa votes no.
    Mr. Vargas?
    Mr. Vargas. No.
    Ms. Stiles. Mr. Vargas votes no.
    Mr. Gonzalez?
    Mr. Gonzalez. No.
    Ms. Stiles. Mr. Gonzalez votes no.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Stiles. Mr. McCaul votes aye.
    Mr. Smith?
    [No response.]
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Stiles. Mr. Chabot votes aye.
    Mr. Wilson?
    Mr. Wilson. Aye.
    Ms. Stiles. Mr. Wilson votes aye.
    Mr. Perry?
    Mr. Perry. Aye.
    Ms. Stiles. Mr. Perry votes aye.
    Mr. Yoho?
    Mr. Yoho. Aye.
    Ms. Stiles. Mr. Yoho votes aye.
    Mr. Kinzinger?
    Mr. Kinzinger. Aye.
    Ms. Stiles. Mr. Kinzinger votes aye.
    Mr. Zeldin?
    Mr. Zeldin. Aye.
    Ms. Stiles. Mr. Zeldin votes aye.
    Mr. Sensenbrenner?
    [No response.]
    Mrs. Wagner?
    Mrs. Wagner. Aye.
    Ms. Stiles. Mrs. Wagner votes aye.
    Mr. Mast?
    Mr. Mast. Aye.
    Ms. Stiles. Mr. Mast votes aye.
    Mr. Rooney?
    [No response.]
    Mr. Fitzpatrick?
    [No response.]
    Mr. Curtis?
    Mr. Curtis. Aye.
    Ms. Stiles. Mr. Curtis votes aye.
    Mr. Buck?
    Mr. Buck. Aye.
    Ms. Stiles. Mr. Buck votes aye.
    Mr. Wright?
    Mr. Wright. Aye.
    Ms. Stiles. Mr. Wright votes aye.
    Mr. Reschenthaler?
    [No response.]
    Mr. Burchett?
    Mr. Burchett. Aye.
    Ms. Stiles. Mr. Burchett votes aye.
    Mr. Pence?
    Mr. Pence. Aye.
    Ms. Stiles. Mr. Pence votes aye.
    Mr. Watkins?
    Mr. Watkins. Aye.
    Ms. Stiles. Mr. Watkins votes aye.
    Mr. Guest?
    Mr. Guest. Aye.
    Ms. Stiles. Mr. Guest votes aye.
    Mr. Chairman?
    Chairman Engel. No.
    Ms. Stiles. Mr. Chairman votes no.
    Chairman Engel. Mr. Costa?
    Ms. Stiles. Mr. Costa?
    Mr. Costa. Votes no.
    Ms. Stiles. Mr. Costa votes no.
    Chairman Engel. Ms. Spanberger?
    Ms. Spanberger. No.
    Ms. Stiles. Ms. Spanberger votes no.
    Chairman Engel. Anyone who has not voted who would like to 
do so?
    Mr. Sherman?
    Mr. Sherman. No.
    Ms. Stiles. Mr. Sherman votes no.
    Chairman Engel. The clerk shall tally and call the roll.
    Ms. Stiles. Mr. Chairman, on that vote, there were 17 ayes 
and 24 noes.
    Chairman Engel. 17 ayes and 24 noes. The amendment is not 
agreed to.
    Are there any other requests for recognition?
    Hearing none, we then move on to final passage.
    Hearing no further requests for recognition, the question 
is to report H.R. 9, the Climate Action Now Act, to the House 
with the recommendation that the bill do pass.
    All those in favor say aye.
    All opposed, no.
    In the opinion of the chair, the ayes have it.
    Mr. McCaul. Mr. Chairman?
    Chairman Engel. Mr. McCaul?
    Mr. McCaul. I request a recorded vote.
    Chairman Engel. The Ranking Member requests a recorded 
vote.
    The question is to report H.R. 9, the Climate Action Now 
Act, to the House with the recommendation that the bill do 
pass.
    The clerk will please call the roll.
    Ms. Stiles. Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Stiles. Mr. Sherman votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Stiles. Mr. Meeks votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Stiles. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Stiles. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Stiles. Mr. Deutch votes aye.
    Ms. Bass?
    [No response.]
    Ms. Stiles. Mr. Keating?
    Mr. Keating. Aye.
    Ms. Stiles. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Stiles. Mr. Cicilline votes aye.
    Mr. Bera?
    Mr. Bera. Aye.
    Ms. Stiles. Mr. Bera votes aye.
    Mr. Castro?
    Mr. Castro. Aye.
    Ms. Stiles. Mr. Castro votes aye.
    Ms. Titus?
    Ms. Titus. Aye.
    Ms. Stiles. Ms. Titus votes aye.
    Mr. Espaillat?
    Mr. Espaillat. Aye.
    Ms. Stiles. Mr. Espaillat votes aye.
    Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Stiles. Mr. Lieu votes aye.
    Ms. Wild?
    Ms. Wild. Aye.
    Ms. Stiles. Ms. Wild votes aye.
    Mr. Phillips?
    Mr. Phillips. Aye.
    Ms. Stiles. Mr. Phillips votes aye.
    Ms. Omar?
    [No response.]
    Mr. Allred?
    Mr. Allred. Aye.
    Ms. Stiles. Mr. Allred votes aye.
    Mr. Levin?
    Mr. Levin. Aye.
    Ms. Stiles. Mr. Levin votes aye.
    Ms. Spanberger?
    Ms. Spanberger. Aye.
    Ms. Stiles. Ms. Spanberger votes aye.
    Ms. Houlahan?
    Ms. Houlahan. Aye.
    Ms. Stiles. Ms. Houlahan votes aye.
    Mr. Malinowski?
    Mr. Malinowski. Aye.
    Ms. Stiles. Mr. Malinowski votes aye.
    Mr. Trone?
    Mr. Trone. Aye.
    Ms. Stiles. Mr. Trone votes aye.
    Mr. Costa? Mr. Costa?
    Mr. Costa. Aye.
    Ms. Stiles. Mr. Costa votes aye.
    Mr. Vargas?
    Mr. Vargas. Aye.
    Ms. Stiles. Mr. Vargas votes aye.
    Mr. Gonzalez?
    Mr. Gonzalez. Aye.
    Ms. Stiles. Mr. Gonzalez votes aye.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Stiles. Mr. McCaul votes no.
    Mr. Smith?
    [No response.]
    Ms. Stiles. Mr. Chabot?
    Mr. Chabot. No.
    Ms. Stiles. Mr. Chabot votes no.
    Mr. Wilson?
    Mr. Wilson. No.
    Ms. Stiles. Mr. Wilson votes no.
    Mr. Perry?
    Mr. Perry. No.
    Ms. Stiles. Mr. Perry votes no.
    Mr. Yoho?
    Mr. Yoho. No.
    Ms. Stiles. Mr. Yoho votes no.
    Mr. Kinzinger?
    Mr. Kinzinger. No.
    Ms. Stiles. Mr. Kinzinger votes no.
    Mr. Zeldin?
    Mr. Zeldin. No.
    Ms. Stiles. Mr. Zeldin votes no.
    Mr. Sensenbrenner?
    [No response.]
    Mrs. Wagner?
    Mrs. Wagner. No.
    Ms. Stiles. Mrs. Wagner votes no.
    Mr. Mast?
    Mr. Mast. No.
    Ms. Stiles. Mr. Mast votes no.
    Mr. Rooney?
    [No response.]
    Mr. Fitzpatrick?
    [No response.]
    Mr. Curtis?
    Mr. Curtis. No.
    Ms. Stiles. Mr. Curtis votes no.
    Mr. Buck?
    Mr. Buck. No.
    Ms. Stiles. Mr. Buck votes no.
    Mr. Wright?
    Mr. Wright. No.
    Ms. Stiles. Mr. Wright votes no.
    Mr. Reschenthaler?
    [No response.]
    Mr. Burchett?
    Mr. Burchett. No.
    Ms. Stiles. Mr. Burchett votes no.
    Mr. Pence?
    Mr. Pence. No.
    Ms. Stiles. Mr. Pence votes no.
    Mr. Watkins?
    Mr. Watkins. No.
    Ms. Stiles. Mr. Watkins votes no.
    Mr. Guest?
    Mr. Guest. No.
    Ms. Stiles. Mr. Guest votes no.
    Mr. Chairman?
    Chairman Engel. Aye.
    Ms. Stiles. Mr. Chairman votes aye.
    Chairman Engel. Have all members been recorded?
    The clerk will report.
    Ms. Stiles. Mr. Chairman, on that vote, there are 24 ayes 
and 16 noes.
    Chairman Engel. 24 ayes and 16 noes. The ayes have it. The 
measure is ordered favorably reported.
    Mr. McCaul. Mr. Chairman?
    Chairman Engel. Yes, Mr. McCaul.
    Mr. McCaul. Pursuant to House rules, I request that members 
have the opportunity to submit views for any committee report 
that may be produced on any of today's measures.
    Chairman Engel. Without objection.
    Without objection, the staff is authorized to make 
necessary technical and conforming changes for all the measures 
considered today.
    So, this concludes our business. I want to thank Ranking 
Member McCaul and all of the committee members for their 
contributions and assistance with today's markup.
    The committee stands adjourned.
    [Whereupon, at 5:50 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

       STATEMENTS SUBMITTED FOR THE RECORD FROM COMMITTEE MEMBERS
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                          RECORD VOTE TALLIES
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                             MARKUP SUMMARY
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
